<html>
<title> - AFTER ACTION: A REVIEW OF THE COMBINED FEDERAL, STATE, AND LOCAL ACTIVITIES TO RESPOND AND RECOVER FROM HURRICANES GUSTAV AND IKE</title>
<body><pre>[Senate Hearing 110-827]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-827

   AFTER ACTION: A REVIEW OF THE COMBINED FEDERAL, STATE, AND LOCAL 
    ACTIVITIES TO RESPOND AND RECOVER FROM HURRICANES GUSTAV AND IKE

=======================================================================

                                HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
45-578                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              PETE V. DOMENICI, New Mexico
                     Donny Williams, Staff Director
                 Aprille Raabe, Minority Staff Director
                       Kelsey Stroud, Chief Clerk














                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Landrieu.............................................     1
    Senator Domenici.............................................     5
Prepared statement:
    Senator Voinovich............................................    41

                               WITNESSES
                      Tuesday, September 23, 2008

Hon. Kay Bailey Hutchison, a U.S. Senator from the State of Texas     8
Hon. John Cornyn, a U.S. Senator from the State of Texas.........     9
Hon. David Vitter, a U.S. Senator from the State of Louisiana....    10
Bill White, Mayor, Houston, Texas................................    11
Cedric B. Glover, Mayor, Shreveport, Louisiana...................    13
Lyda Ann Thomas, Mayor, Galveston, Texas.........................    15
Reggie P. Dupre, Jr., State Senator, Louisiana State Senate 
  District 20....................................................    17
David Dewhurst, Lieutenant Governor, State of Texas..............    25
Mitch Landrieu, Lieutenant Governor, State of Louisiana..........    27
Harvey E. Johnson, Jr., Deputy Administrator and Chief Operating 
  Officer, U.S. Federal Emergency Management Agency..............    30
Ed Hecker, Chief of Homeland Security, U.S. Army Corps of 
  Engineers, accompanied by Gary A. Loew, Director, Civil Works 
  Programs Integration Directors, U.S. Army Corps of Engineers...    31

                     Alphabetical List of Witnesses

Cornyn, Hon. John:
    Testimony....................................................     9
Dewhurst, David:
    Testimony....................................................    25
    Prepared statement with attachments..........................    75
Dupre, Reggie P., Jr.:
    Testimony....................................................    17
    Prepared statement...........................................    71
Glover, Cedric B.:
    Testimony....................................................    13
    Prepared statement...........................................    57
Hecker, Ed:
    Testimony....................................................    31
    Prepared statement...........................................   106
Hutchison, Hon. Kay Bailey:
    Testimony....................................................     8
Johnson, Harvey E., Jr.:
    Testimony....................................................    30
    Prepared statement...........................................    93
Landrieu, Mitch:
    Testimony....................................................    27
    Prepared statement...........................................    84
Loew, Gary A.:
    Testimony....................................................    31
Thomas, Lyda Ann:
    Testimony....................................................    15
    Prepared statement...........................................    60
Vitter, Hon. David:
    Testimony....................................................    10
White, Bill:
    Testimony....................................................    11
    Prepared statement...........................................    48

                                APPENDIX

Sheila Jackson Lee, a U.S. Representative from the State of Texas    42
Declaration Timeline for Hurricane Ike--Louisiana submitted by 
  Mr. Johnson....................................................   112
2-1-1 Preparation................................................   113
Questions and responses submitted for the Record from:
    Mr. Dupre....................................................   120
    Mr. Landrieu.................................................   121
    Mr. White....................................................   123
    Mr. Dewhurst.................................................   124
    Mr. Johnson..................................................   128
    Mr. Hecker...................................................   149
Chart referred to by Senator Landrieu............................   152
Map of Texas referred to by Senator Landrieu.....................   153

 
   AFTER ACTION: A REVIEW OF THE COMBINED FEDERAL, STATE, AND LOCAL 
    ACTIVITIES TO RESPOND AND RECOVER FROM HURRICANES GUSTAV AND IKE

                              ----------                              


                      TUESDAY, SEPTEMBER 23, 2008

                                     U.S. Senate,  
              Ad Hoc Subcommittee on Disaster Recovery,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:09 a.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Mary 
Landrieu, Chairman of the Subcommittee, presiding.
    Present: Senators Landrieu and Domenici.
    Also Present: Senators Cornyn and Vitter.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Ladies and gentlemen, if you would take 
your seats, I would like to call the Subcommittee to order. 
Thank you all and welcome to the Subcommittee on Disaster 
Recovery. Our hearing is entitled ``After Action: A Review of 
the Combined Federal, State, and Local Activities to Respond 
and Recover from Hurricanes Gustav and Ike.''
    Let me begin by welcoming my Ranking Member, Senator 
Domenici, who is newly designated as the Ranking Member, but 
not new to this Subcommittee and most certainly not new to this 
Congress, having served for over----
    Senator Domenici. Thirty-six years.
    Senator Landrieu. Thirty-six years, in large measure on 
Budget and Energy Committees, but most certainly familiar with 
the subject before us.
    I also would like to welcome Senator Cornyn from Texas, who 
is sitting in on today's hearing, and my colleague, Senator 
Vitter from Louisiana, and also Senator Hutchison, who will be 
introducing the Texas witnesses, and all three asked to join us 
this morning because of the importance of this subject.
    Let me begin by just giving a short opening statement, and 
then I will turn to my Ranking Member, and then after that I am 
going to ask Senator Hutchison to introduce the members of the 
first panel from Texas. I will do the introductions of the 
panelists from Louisiana, and then we will begin. We have three 
panels this morning. We have a very aggressive schedule for 
this hearing, and we are going to do our very best to get 
through all three panels. We very much thank the mayors and 
Senators for joining us today.
    On Labor Day this year, there was not a television in 
America that was not turned to either The Weather Channel or 
CNN. Millions of concerned Americans were watching to see what 
was going to happen on the Gulf Coast as Hurricane Gustav bore 
down on that region and to understand whether the government 
would respond better at the Federal, State, and local level. I 
know that the people of Texas, Louisiana, and Mississippi 
received a lot of prayers that day, and we are all grateful for 
the prayers we received.
    And then just about 2 weeks ago, a very similar occurrence 
took place as eyes were turned to the Gulf Coast once again as 
Hurricane Ike came ashore in Texas and South Louisiana. The 
country watched with keen anxiety again as it appeared their 
friends and neighbors along the Gulf Coast would again face 
catastrophe.
    The hard part to understand for the people living and 
struggling through the aftermath of Hurricanes Ike and Gustav 
is that it seemed as though the second these particular storms 
did not result in catastrophic death tolls, although there were 
hundreds of people that lost their lives. The national cameras 
went off, and there is a sense outside of the Gulf Coast, I 
think, and particularly maybe even here in Washington, that 
things went pretty well. And I hope that this hearing will 
focus, yes, on those things that we did do better. We all 
learned in the aftermath of Hurricanes Katrina and Rita. But we 
all know, particularly the mayors and the local officials that 
have been fighting these battles now for weeks and days, that 
all things did not go well. We want to examine what worked and 
what did not work.
    I want my colleagues in Washington to know, and people 
listening to this hearing, that we did not dodge a bullet. The 
bullet hit the Gulf Coast. It hit Texas, and it hit South 
Louisiana again. Following the disasters of Hurricanes Katrina 
and Rita, which we still have not in any way recovered from in 
South Louisiana, it has been a particularly hard blow.
    I think if it were not for Hurricane Katrina, which set the 
mark--that catastrophe was of such a nature that I hope we 
never will in any way receive a hit like that. But because that 
mark was raised so high, I think that there may be some idea 
that these storms that were Categories 2's and 3's did not 
really cause quite so much damage. If it would not be for 
Hurricane Katrina, I believe we would be talking about 
Hurricanes Ike and Gustav like the Floridians still talk, 
Senator Domenici about Hurricane Andrew that hit in 1992. These 
were very serious storms.
    So one of the central focuses of today's hearing is to 
explain to the American people and to the Members of Congress 
what exactly happened along the Gulf Coast. How did the Federal 
Government respond this time? What lessons were learned and 
were implemented? What still needs to be done? We want to hear 
from States and cities and counties about what improvements 
were made, what new lessons did they take away, and finally, 
and most importantly, what is the path forward. How do we bring 
our communities back in a more forward-thinking, aggressive, 
and robust manner than we were able to do after Hurricanes 
Katrina and Rita.
    I am going to submit the rest of my opening statement, 
which is quite lengthy and outlines, I think, some very 
important facts about the damage that occurred, not just in 
Galveston, Mayor, which you have been so magnificently fighting 
for your people, not just in Houston, not just along the 
southern coast of Louisiana, but through many other parts of 
Texas and Louisiana, to served as a basis of this hearing. I 
will submit that for the record.
             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU
    On Labor Day of this year, there wasn't a television in America 
that was not tuned to either the Weather Channel or CNN. Millions of 
concerned Americans were watching to see what was going to happen to 
the Gulf Coast and to understand how their government would respond. I 
know that the people of Texas, Louisiana, and Mississippi received a 
lot of prayers that day. We are thankful for them. A very similar thing 
happened just weeks later as Hurricane Ike came ashore in Texas. The 
country watched with keen anxiety as it appeared that their friends and 
neighbors along the Gulf Coast would again face catastrophe.
    The hard part to understand--hard for the people living through 
Hurricanes Ike and Gustav, and hard for the people watching, is that 
the second these storms did not result in catastrophic death tolls, the 
cameras went off. The media quickly turned to other topics. So, there 
is a sense outside the Gulf Coast that everything went well. FEMA is 
all fixed, we are ready for the next major disaster, and the Gulf Coast 
only suffered inconsequential damage.
    Colleagues stop me all the time and say things like ``wow, you guys 
really dodged a bullet.'' I've got to take the time to tell them, ``oh 
no we did not.'' Louisiana and Texas suffered massive damage from 
Hurricanes Gustav and Ike. If Hurricanes Katrina and Rita had not 
changed our entire term of reference for what a natural disaster could 
look like, we would be talking about Hurricanes Gustav and Ike like 
Floridians talk about Hurricane Andrew. Hurricanes Ike and Gustav would 
go in the record books as events that dramatically altered people's 
perceptions.
    So, one of the central focuses of today's hearing is to explain to 
the American people, and to the Congress what happened along the Gulf 
Coast once the camera's turned off. How did the Federal Government 
respond this time? What lessons learned were implemented, what still 
needs to be done? We also want to hear from the States--what 
improvements did they make, what new lessons did they take away. And 
finally, what is the path forward? How do we bring these communities 
back in a more forward thinking, aggressive and rapid manner than we 
were able to do after Hurricanes Katrina and Rita?
    With that, I would like to start by thanking my Ranking Member 
Senator Domenici and all the officials from the State of Louisiana and 
Texas for traveling to Washington, DC today for this vitally important 
hearing. I also want to welcome to the Subcommittee on Disaster 
Recovery, Senator Vitter, my colleague from the State of Louisiana, as 
well as Senators Kay Bailey Hutchison and John Cornyn of Texas. All of 
us represent citizens who have gone through a period of turmoil, 
confusion, exhaustion, and devastation resulting from Hurricanes Gustav 
and Ike.
    Hurricane Gustav formed as a tropical storm approximately 260 miles 
southeast of Port-au-Prince, Haiti, on August 25, 2008, and rapidly 
strengthened, entering the Gulf of Mexico on August 31--just two days 
after the 3rd anniversary of 2005's Hurricane Katrina. The storm made 
landfall as a strong Category 2 storm at 9:30 a.m. with a maximum 
sustained wind speed of 110 miles per hour, one mile per hour shy of 
Category 3 strength.
    Nearly 2 million Louisiana residents evacuated, or about 95 percent 
of the population of south Louisiana, following mandatory evacuation 
orders in 17 parishes.
    More than 115,292 qualified for FEMA's hotel/motel program, 2,087 
evacuees remain in hotel room evacuees, and 374,898 people have 
registered for Individual Assistance from FEMA .
    Preliminary State estimates suggest that Hurricane Gustav caused $7 
to $15 billion in property damage, or roughly 7 to 15 percent of the 
property damage sustained in Hurricanes Katrina and Rita.
    Insurers expect Louisiana losses from Hurricane Gustav to total 
between $4 and $10 billion.
    Gustav is projected to result in approximately $2 to $5 billion 
lost economic activity.
    Tropical Storm Ike developed on September 1st and quickly became a 
hurricane on September 2nd. At 9:30 a.m. CDT on September 13th, 
Hurricane Ike made landfall on Galveston Island as a strong Category 2 
hurricane. Hurricane Ike brought maximum winds of 110 mps with gusts up 
to 125, and had a storm surge in some areas as high as 14 feet.
    Louisiana Parish officials report 24,774 flooded homes from last 
weekend's hurricane.
    Terrebonne Parish was hardest hit, with over 15,000 homes flooded, 
2,500 homes were inundated in Jefferson Parish. Another 6,500 homes 
were reported flooded in Cameron, Calcasieu, Iberia and Vermillion 
parishes.
    FEMA's Office of Infrastructure Protection reported that Hurricane 
Ike destroyed 28 oil and gas platforms.
    Power outages for Hurricane Ike-impacted States at one point 
reached a high of 6.1 million.
    Hurricanes Gustav and Ike have hit these communities hard as they 
were just recovering from the one-two punch of Hurricanes Katrina and 
Rita.
    In Texas, the City of Galveston was completely devastated. It is a 
city of 60,000 people, and the storm impacted every single one of them. 
Between 10,000 and 20,000 homes were severely damaged, and it is 
estimated that over 80 percent of all properties took on at least some 
flooding. The infrastructure of the city has suffered severe damage, 
rendering it uninhabitable for the 10 days following the storm.
    In Texas as a whole, 26 people lost their lives as a result of the 
storms. So far, over 248,667 households have applied for assistance 
from FEMA. Houston, a city that stepped up during the aftermath of 
Hurricanes Katrina and Rita, now needs the same in return. Thousands of 
households and businesses have severe structural damage. The long-term 
needs of evacuees have yet to emerge, but we must be ready to meet 
them, as Houston did for Hurricane Katrina's victims.
    What we know from experience is that the real work of rebuilding 
homes, schools, communities, and lives begins now. And that is the 
purpose of this hearing. Now is when it counts. Now is when the actions 
of the Federal Government can mean the difference between an efficient, 
effective, timely, and intelligent recovery, versus an inefficient, 
ineffective, untimely, and unintelligent recovery. I view the 
recoveries from Hurricanes Gustav and Ike through a lens colored by the 
mistakes and lack of initiative that marred the first 2\1/2\ years of 
the recovery from Hurricanes Katrina and Rita. This cannot be allowed 
to be the case for Hurricanes Gustav and Ike.
    For instance, during Hurricanes Katrina and Rita, FEMA took 2 years 
to make a decision as to whether survivors of the storms would be 
allowed to use Hazard Mitigation Funds, which are funds used to allow 
recipients to take steps like elevating their homes, buying storm 
shutters, and other protective matters. FEMA sat on the decision while 
it wrangled over whether certain rules should apply to the program. It 
wasn't until the full Homeland Security and Governmental Affairs 
Committee passed the SMART RESPONSE Act, a bill that I introduced at 
the beginning of this year to force FEMA to allow Louisianans access to 
the Hazard Mitigation funds, that FEMA decided to change the rule on 
their own. Many had already begun to rebuild only to find out that they 
would not be able to elevate. As a result, people had to wait 2 years 
in order to elevate their homes.
    Another equally important example was the length of time it took 
for FEMA to determine that communities there were completely devastated 
during Hurricanes Katrina and Rita and whose tax bases were completely 
wiped out, should not have to repay Community Disaster Loan. It took 
FEMA over a year to decide that these Community Disaster Loans, which 
are made to keep communities alive, helping to pay for overtime pay of 
police, fire, and emergency managers, and to maintain other critically 
important government services in the aftermath of devastating storms. 
These funds were used to keep the local governments alive as they had 
literally no money to fund the normal activities of a government, nor 
any means to pay the brave people that were fighting to rebuild these 
communities, and who at the same time were themselves survivors of the 
storms--that is neither efficient, effective, timely, nor intelligent.
    These examples were also reflected in the struggle with the 
Administration to get 100-year protection for the levees, which 
according to the Corps is only 30 percent complete in the New Orleans 
metro area.
    Even to this day, the area outside the New Orleans metro area 
continues to be exposed to hurricanes and flooding. In particular, 
Terrebonne Parish has no Federal levee protection in spite of having an 
authorized project. The Corps continues to delay construction of 
Morganza to the Gulf, which resulted in flooding during Hurricane Ike 
that could have been diminished or prevented in Terrebonne Parish.
    Additionally, the two hurricanes brought silt and debris into 
Louisiana and Texas' waterways that will require a significant Federal 
commitment to restore navigation.
    In fact, it is no exaggeration to say that FEMA's efforts to become 
a true participant in recovery along the Gulf Coast began when I put a 
hold on the nomination of FEMA's witness today, Deputy Administrator, 
Harvey E. Johnson. At his confirmation hearing, I asked him whether he 
had been to the Gulf Coast, and he responded that he had only spent 
limited time, even though he was FEMA's Chief Operating Officer at the 
time.
    As a precondition for allowing his nomination to move forward, I 
insisted that Mr. Johnson travel to the Gulf Coast and meet with State 
and local officials. To really perform his job, Mr. Johnson needed to 
hear directly from the people on the ground about what they needed and 
what they were facing. He made that trip in February of this year, and 
from that meeting a series of decisions were made that have moved the 
recovery along at a rate more consistent with the urgency of rebuilding 
a major American city.
    I want to publicly request that the Admiral to commit to convening 
the same type of meeting with the pertinent players in Louisiana and 
Texas in the coming weeks to kick start these recoveries into action.
    I want to speak directly to the people of the Louisiana and Texas 
who are going through the trouble of figuring out what to do, trying to 
find some sense of direction during a very confusing, frustrating, and 
difficult time. I cannot promise you the months to come will be easy. 
Rebuilding communities and lives devastated by storms is never easy. 
What I can promise you is that the recoveries from Hurricanes Gustav 
and Ike will not go the same way as the recoveries from Hurricanes 
Katrina and Rita, so long as this Subcommittee is in existence and I am 
here to lead it. As you can see from this panel, the Senators from 
Louisiana and Texas are here to show that nothing, neither party, nor 
State borders, nor any excuse by anyone in the Federal Government, will 
hinder this recovery.
    Now I want to speak directly to and send a very clear message to 
the Federal witnesses from FEMA and the Army Corps of Engineers:

        If there is red-tape, you need to cut it.
        If you don't have authority to do what needs to be done, you 
        need to tell us what authority you need and we will give it to 
        you.
        If you need more funding to help the people rebuild their 
        lives, then you need to ask for it.
        If there is a roadblock that prevents the solution of a 
        problem, you need to clear it.
        If there is something or someone within your agency, 
        department, or this Administration who is preventing you from 
        making this recovery efficient, effective, timely, and 
        intelligent, you need to make it known to us, and we will help 
        you find a way around it.

    We've gone through Hurricanes Katrina and Rita and learned enough 
lessons that there are no excuses and absolutely no tolerance for 
ineffective partnership with the States. Each Senator on this panel 
will be watching every step of the way to ensure that this happens.
    I know what the people of Louisiana and Texas are going through 
now, because the people of my State continue to admirably try to fight 
their way back to normalcy since Hurricanes Katrina and Rita. I know 
because I am one of them. It is the job of the Subcommittee on Disaster 
Recovery, this Senate, and this government to do whatever we can give 
the people and the State and local officials that represent them, the 
tools they need to get back on their feet. Anything short of that will 
be handled with the sharpest response possible from this oversight 
body.
    Together we need to do whatever it takes to be better for the 
people of Louisiana and Texas who have gone through the unimaginable. 
And I hope you are all committed to doing so.

    Senator Landrieu. Now I would like to ask Senator Domenici 
to add his opening comments.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. Madam Chairman, let me just say that this 
is not my normal assignment. I think everybody understands who 
is in the Senate community that I am here because my good 
friend Senator Stevens asked me to take his place on this 
Subcommittee. And he is indisposed, and I will be glad to do 
what is necessary.
    I have a rather detailed statement, but I see so many 
wonderful witnesses who know more than I as to what really 
happened, and I will just put it in the record.
    [The prepared opening statement of Senator Domenici 
follows:]
             OPENING PREPARED STATEMENT OF SENATOR DOMENICI
    Thank you, Senator Landrieu, for holding this important hearing to 
discuss recovery efforts after Hurricanes Gustav and Ike.
    I know that you understand, better than any of us, what a daunting 
task it can be for a community to recover from a catastrophic storm, 
and I look forward to working with you to help all who were affected by 
these hurricanes. I also hope that the testimony we hear today will 
show us how far FEMA has come in preparing for and responding to 
catastrophic disasters, and how they can further improve their efforts.
    This year's storms have caused significant and lasting damage to 
communities throughout the Gulf Coast. Some will need months, if not 
years, to fully recover. Latest estimates show that more than 800,000 
residents are still without power, and thousands more remain unable to 
return home.
    Hurricane Ike was so large, it managed to flood tens of thousands 
of homes in Louisiana, while nearly destroying Galveston and wreaking 
havoc on our nation's fourth largest city, Houston.
    This is something FEMA and state and local governments must be 
better prepared for.
    Although I understand evacuations were conducted smoothly for these 
storms, I am disappointed in the lack of preparation there seemed to be 
for sheltering, feeding and providing basic necessities for those 
displaced by the storms.
    After what we witnessed during Hurricane Katrina, FEMA should now 
be well prepared to house a large number of people in the aftermath of 
a disaster, and I am interested to hear how far they have come with a 
national disaster housing strategy.
    While it is always difficult to find a silver lining in the wake of 
such devastation, I believe there is some positive news to report.
    As you know, Madame Chairman, the 3,900 platforms in the Gulf of 
Mexico account for more than a quarter of the oil our nation produces, 
and more than 15 percent of our natural gas.
    The safety and integrity of those platforms was put to the test by 
Hurricanes Gustav and Ike, which reached our Gulf Coast just 12 days 
apart. Crews had a very short timeframe to prepare for their impact, 
shut-in production, and then evacuate to land. During the storms, 
platforms were battered with wind gusts in excess of 125 miles per hour 
and waves more than 50 feet in height.
    Despite the intensity of Hurricanes Gustav and Ike, the latest 
reports from the Department of Energy are encouraging. Just 1 percent 
of Gulf platforms were rendered inoperable, and collectively, those 
platforms account for just 1 percent of the region's daily oil and gas 
production.
    The vast majority of Gulf oil and gas platforms sustained little to 
no damage during these extraordinary storms. Modern technology has 
allowed us to build platforms that can repeatedly withstand the full 
force of violent hurricanes. In light of these facts, it should be 
clear that there is minimal risk associated with offshore oil and gas 
production.
    In closing, I want to thank our witnesses for joining us today. I 
look forward to learning more from them about ongoing recovery efforts 
in the Gulf Coast states.
    Our thoughts and prayers continue to be with the residents of the 
Gulf Coast. I hope that we can all work together to get this region the 
help and resources it needs for a speedy recovery, and I will work with 
you, Madame Chairman, to make sure that happens.

    Senator Domenici. The only thing I added that I thought was 
significant, Senator Landrieu, is I added a summary of what 
happened to the oil production in the area because, once again, 
this area being one of America's leading offshore production 
areas, kind of the envy of the rest of the offshores in the 
United States which are producing little or nothing for 
America, nothing significant happened to harm the environment 
or the production. And that is included in my statement because 
I think it is important. But the details in my statement try to 
cover the problems you have had and try to talk about the 
problems that the Federal Government has had.
    I would like to say--which one is the mayor of Galveston? 
Madam Mayor, I just want to tell you something about your city. 
I know you are having terrible problems, and I do not know if 
it will ever return to its previous self. But for this Senator, 
when I was a young man, I had a lover who turned out to be my 
wife now of 50 years and 7 months. But she was going to medical 
school in the city of Galveston, and I was in Albuquerque, New 
Mexico, and I had 6 days, and that meant I had to drive to 
Galveston and see my wonderful woman for as long as I could and 
drive back. And so I did not think I was very good at driving 
long distances because I always complained that I did not sleep 
a lot. But do you know I got behind the wheel of my sister's 
car, Senator Hutchison, and I drove without stopping, except 
for gasoline, from Albuquerque, New Mexico, to Galveston. If 
any of you put that up on a map, it is a pretty long distance.
    I guess maybe I would say to you that Galveston served a 
marvelous purpose, served as my rendezvous city to make sure 
that----
    Senator Landrieu. So you are entitled to extra help because 
of that, Mayor. [Laughter.]
    Senator Domenici. If I could find the marvelous area where 
we were and we enjoyed each other like young kids, holding 
hands and the kind of things that we do, I would go out of my 
way to be helpful to that area, Mayor. But, frankly, I do not 
think it is there any longer.
    There was a row of trees, as I remember, coming in on the 
highway, and that is what was bad because at night, after 24 
hours on the road, or whatever--which I do not broadcast 
because you should not do it. I remember swerving over, and I 
could not understand why there were trees in the way. But, 
actually, I was pretty far off the highway. That is why trees 
were in the way.
    But, anyway, we made it safe and sound thanks to you, and I 
am here to see what I can do as part of the Senate team to get 
the money and grants that you all need as soon as possible. Our 
laws do not always respond the right way, and you all will tell 
us about that, the community of Senators who are here, will 
tell us that these laws do not work very well, and we do not 
seem to fix them to work better. But we are trying our best, 
and we will put money in the appropriations bill this year, 
even though things are not ready from these two hurricanes.
    Senator Landrieu. Thank you, Senator Domenici, and I hope 
part of this hearing is rebuilding and replanting those trees 
that we lost. And we thank the Senator.
    Let me ask Senator Cornyn for a brief opening statement and 
then Senator Vitter, and then we will turn to Senator 
Hutchison.
    Senator Cornyn. Madam Chairman, may I please defer to my 
senior Senator first?
    Senator Landrieu. Yes.
    Senator Cornyn. I would be glad to follow her.
    Senator Landrieu. Go right ahead.

STATEMENT OF HON. KAY BAILEY HUTCHISON, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchison. Well, thank you very much, Senator 
Cornyn. I certainly appreciate that. And having been born in 
Galveston, Senator Domenici, I will tell you the palm trees 
still line Broadway where you drove in and maybe on the median 
there. But I assure you it is a signature of Galveston, and 
with all of our help, those palm trees will be in very good 
shape.
    Let me say that the two mayors here with me today and the 
mayors that I met with yesterday in the other affected counties 
have done a fabulous job. I have been with Mayor White, Mayor 
Thomas, either on the phone or in their centers where they are 
in disaster recovery for the last 2 weeks, and they are really 
serving their constituents so well. And I think today you are 
going to be inquiring about how everything else worked and how 
people worked together because these disasters are all ways 
that we can learn and do better the next time.
    This one is really bad. It is the worst I have seen. I told 
you I was born and raised in Galveston County. I have never 
seen one this bad. So I know that we have a long way to go, but 
the great thing is I know that our colleagues will help us.
    I have already been working with Senator Landrieu, also 
with Senators Harkin, Durbin, Bond, Chairman Byrd, and Ranking 
Member Cochran, on the disaster package that will be coming 
forward from our Appropriations Committee. I am very pleased 
that they are looking out for us, even though it has only been 
10 days, and we do not have all of the estimates neatly 
packaged with a ribbon tied on them because they have not even 
gotten into parts of Galveston yet.
    So we are going to start with an estimate, and I am pleased 
that we have been able through all of our work together--
Senator Cornyn, myself, Senator Landrieu, Senator Vitter--to 
make sure that Hurricane Ike is in this bill. It will not be 
everything, but it will be a very strong beginning when we pass 
our disaster package.
    In addition to that, our delegations, again, have been 
working on the tax extender package which we will pass today. 
This is for the low-income tax credits for rebuilding the 
housing that is going to be so desperately needed in parts of 
Harris County and Houston, as well as Galveston, Beaumont, Port 
Arthur, Orange, and all of Orange County/Bridge City, where I 
was yesterday. That is a very important component that we have 
been able to get also in the bill that is going to be passed 
today separately.
    I just want to introduce these mayors, and the Lieutenant 
Governor of Texas will be on the next panel, with your brother, 
the Lieutenant Governor of Louisiana, to talk about it from the 
State's standpoint because the key here is that FEMA and the 
State work together, while we are doing our part in getting the 
funding. And that is what you are going to explore today.
    So I am very pleased that Lieutenant Governor David 
Dewhurst is representing the State of Texas today, and I am 
very pleased to have these two mayors here presenting our case. 
I think that, considering when this storm happened, we are very 
far down the road to getting the emergency money that will be 
needed. We need to make sure the coordination of the local, 
Federal, and State are working to get the money where it needs 
to be. That is the thing that we hear from every mayor, every 
county judge that we talk to. It is not just that we have 
gotten the money here in Washington. It is that they are able 
to get it on the ground where they need it.
    So thank you, Madam Chairman, for bringing them here today, 
for listening to what they have learned, so that we can all be 
better in the future. Thank you.
    Senator Landrieu. Thank you. Senator Cornyn.

 OPENING STATEMENT OF SENATOR CORNYN, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Cornyn. Thank you, Senator Landrieu and Senator 
Domenici, for calling this important and timely hearing. And I 
will not repeat except to welcome Mayor White, Mayor Thomas, 
and Lieutenant Governor Dewhurst here today, and to say that I 
am proud of the great leadership that our local and State 
officials showed during a very trying time. And while Houston 
is trying to get all of this power back online and Galveston 
has long-term challenges that you will hear more about, I could 
not be more proud of what I saw as a seamless effort, 
cooperation between local, State, and Federal officials in 
trying to deal with this, not only plan for it, practice that 
plan, and then when the natural disaster came, to respond in a 
way that preserved human life as much as possible, and then 
made sure we were prepared to reenter and rebuild, as we will, 
with the help of the Federal Government and everybody from the 
Red Cross all the way up to Washington.
    I just want to say that, of course, Secretary Chertoff of 
the Department of Homeland Security has been down twice to the 
region since the hurricane. We had Secretary Mike Leavitt of 
HHS and, of course, David Paulison, the FEMA Director, and the 
President of the United States came down. And I am very 
appreciative of the responsiveness and attentiveness that they 
have shown to the damage and the needs and the hardships being 
suffered by people that, frankly, many of whom have no place to 
live right now and are obviously in a lot of distress. But we 
will be back, but we need some help, and I am pleased to hear 
Senator Landrieu and Senator Domenici make their commitments to 
help us do that.
    Let me just say finally that, as we are contemplating a 
bailout of Wall Street for somewhere on the tune of $700 
billion, I hope that we keep in mind those who, through no 
fault of their own, have no place to live. And I trust that we 
will see a parity of treatment for all natural disasters, 
whether they be Hurricanes Rita, Katrina, Gustav, Dolly, or 
Ike. And I trust that will be the case.
    So thank you very much for your leadership, and thank you 
for working with Senator Hutchison and me and the entire Texas 
delegation, as well as our distinguished local leaders and 
Lieutenant Governor Dewhurst, to make sure that happens.
    Senator Landrieu. Thank you. And we can submit these 
statements to the record.
    Senator Vitter. We want to try to get to our panel. Go 
ahead, Senator.

 OPENING STATEMENT OF SENATOR VITTER, A U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you, Senator Landrieu and Senator 
Domenici, for hosting this hearing and also thanks to all of 
our guests. I look forward to exploring a number of issues in 
questioning. I also acknowledge the enormous hit southeast 
Texas suffered, and we will all be there to assist you, led in 
part by those of us from Louisiana who have experienced that in 
the recent past. And I also acknowledge great work by so many 
folks at the local, State, and Federal level.
    However, in my brief opening, I just want to focus on one 
very specific area and concern. It stems out of my role on the 
Environment and Public Works Committee overseeing the Corps, 
and that is a real lack of focus and sense of urgency about 
some of our ongoing flood control work in Louisiana. And I will 
just make the point briefly by reading a letter that I sent 
yesterday to General Robert Van Antwerp, the Commanding General 
of the Corps.
    ``In June 2006, as part of the emergency supplemental 
appropriations bill, P.L. 109-234, I secured $30.024 million in 
Federal funding for repairs, replacement, modifications, and 
improvements to non-Federal levees in Terrebonne Parish. This 
funding was dedicated specifically to local work on levees 
outside of the Federal Government's jurisdiction, and with its 
focus on local protection, the 2006 funding should have been 
provided without delay to begin construction immediately on 
stronger local flood protection. State and parish officials had 
concrete plans, which I provided to Congress and the Corps, and 
they were ready to begin immediately on construction.''
    ``Unfortunately, the Corps sat on this money for over 2 
years, preventing it from having any concrete impact on the 
ground in Terrebonne Parish. Even worse, the Corps apparently 
squandered away some portion of this funding on a study in 
conjunction with Southern University in order to build a 
mentoring relationship with Southern, an initiative and 
priority of certain Corps officials.''
    ``These hard-earned taxpayer dollars were not appropriated 
to mentor anyone, including entities that know little or 
nothing about Terrebonne Parish flood control needs and little 
or nothing about the engineering involved. These dollars were 
approved to build real flood control on the ground in 
Terrebonne Parish immediately. If this had been done over the 
past 2 years as directed and intended, Terrebonne Parish would 
have been saved from a very large percentage of the devastating 
flooding it suffered over the past month. It is just that 
simple.''
    ``I have had it with this sort of bureaucratic nonsense 
that contributes directly to our extended pain and suffering. 
The fact that red tape and bureaucratic ineptness contributed 
to Terrebonne Parish's flooding in the past month is 
unconscionable. There is no excuse for this flooding when 
$30.024 million was appropriated over 2 years ago to prevent 
just such damage. This is a clear example of broken government 
that has failed its citizens.''
    ``As you know, we are meeting Wednesday in my office on a 
select number of issues related to Hurricanes Gustav and 
Ike''--including this one. ``At this meeting, I need to hear 
from you on two points:''
    ``First, why was this $30.024 million prevented from having 
an immediate impact on the ground in Terrebonne Parish? And why 
was some portion of it squandered away on a study in 
conjunction with Southern University?''
    ``Second, what is your precise plan to end all the studies 
and mentoring, immediately transfer the full $30.024 million to 
State and parish flood control officials, and get out of the 
way?''
    ``I look forward to a response from the Corps here as well 
as in my meeting tomorrow, and I bring this up first because it 
is very important in and of itself, particularly to the 
citizens of Terrebonne Parish; but, second, because 
unfortunately I think it is an endemic problem at the Corps and 
represents a much broader challenge.''
    Thank you, Madam Chairman.
    Senator Landrieu. Thank you, Senator Vitter.
    I would like to begin our panel by saying that 
Congresswoman Sheila Jackson Lee has submitted a statement for 
the record, and that will be a part of our hearing.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Sheila Jackson Lee appears in the 
Appendix on page 42.
---------------------------------------------------------------------------
    I also want to say that Mr. Johnson has been asked by me to 
sit through these panels. Would you please stand? Mr. Johnson, 
Deputy Administrator of FEMA, will hear directly from these 
local officials during their testimony.
    Also, Ed Hecker from the Corps is here to hear Senator 
Vitter's statement and one that I will add on that same subject 
because part of the recovery of the Gulf Coast has to do with 
the Corps of Engineers.
    So let us begin, if we could. Mayor White, why don't we 
start with you? In your testimony, we are asking you to limit 
it to 5 minutes. And then I will introduce Mayor Glover and 
Senator Dupre at their time.
    Mayor White.

       TESTIMONY OF BILL WHITE,\2\ MAYOR, HOUSTON, TEXAS

    Mr. White. Thank you, Madam Chairman, and I thank the 
Members of this Subcommittee. And, Madam Chairman, I do have 
detailed testimony that I would like to submit for the record. 
The last 10 or 11 pages are very detailed comments addressing 
points about removing bureaucratic impediments to response.
---------------------------------------------------------------------------
    \2\ The prepared statement of Mr. White appears in the Appendix on 
page 48.
---------------------------------------------------------------------------
    The Nation's fourth largest city is still 30 percent 
without power. You go through our streets, and there are walls 
of debris that shade the drivers, street lights not working, 
and we have thousands who do not have homes to return to from 
all income levels.
    Madam Chairman, you said it well, that because of the 
financial crisis and because people were not rescued off 
rooftops, then we fear sometimes that people will forget the 
enormity of the devastation caused by one of the most severe 
storms to hit the United States. When Houston and Texas 
respond, when our neighbors in other States have needs, Senator 
Domenici, you know that one of every 12 soldiers in uniform 
come from our State, and when we had, Senator, a quarter of a 
million people from southern Louisiana visit my hometown right 
after Hurricane Katrina, we tried to treat them the way that we 
would want them to treat us because we knew that we are on the 
front lines of America's response to a national disaster. Now 
we need your help.
    I will not talk about the amounts. Senator Hutchison, 
Senator Cornyn, and our Senators from Louisiana have been 
fighting for the dollars that we need that are proportionate to 
what has been done with other disasters. We do not want more or 
less than would be the share of these States. But I thought I 
could, Madam Chairman, within the remaining time highlight 
specific issues that you might consider addressing 
legislatively and in your continuing oversight of FEMA. Because 
we have other witnesses if I do not cover all, you can see 
these on pages 6 through 16 of my testimony.
    First, I would say that it is a very dramatic change from 
several years ago, and I have been dealing with FEMA now almost 
continually since Hurricane Katrina on various issues. I think 
Secretary Chertoff, Director Paulison, the President, Mr. 
Johnson, they have been very accessible, and you do not need to 
repeat things. And the people on the ground had a sense of 
urgency of getting things done and give proper deference.
    Having said that, for most of us the thing which is most 
important to us is when the money is going to be wired because 
for some places like Houston, we are in a better position to 
administer things than anybody else, and the fewer levels of 
review--we are conservative in our finances, fiscally 
responsible, high degree of integrity in the way we conduct 
local government. Much of it is done by competitive bidding 
statutes, and we do not need to go through eight layers of 
review. But having said that, I will tell you that I do 
commend--it is a new FEMA as far as this thing compared to what 
we were dealing with several years ago, and I comment them.
    Now, some of the improvements--and I will just mention 
some. I think that the FEMA Administrator should be given as 
much discretion to come up with innovative plans and programs 
that are tailored to the particular disaster. As a businessman, 
I will tell you that there are too many standard operating 
procedures and not enough judgment that are tailored to the 
disaster.
    We need to make sure that funds are advanced promptly. You 
know the crisis in municipal finance--not caused by us--but it 
will be--our access to the credit markets, especially for 
places like Galveston and Jefferson County and others, will be 
exacerbated by the fact that there is not municipal insurance 
for bonds and that the markets are seized, so that those 
Federal funds should be available early and directly. We cannot 
afford to do the float for FEMA and for the Federal Government 
out of the local pocket.
    Housing programs should be flexible and designed by the 
local authorities to meet our need. Senator Hutchison has been 
on the horn. They need some temporary housing in Orange County. 
In Houston, we have thousands of people who do not have homes, 
and there needs to be a voucher program and others that I could 
elaborate on. But we need to be able to design those programs 
locally.
    I will say, too, that Senator Vitter was talking about the 
Corps. They have a Blue Roof program where they can put a patch 
on a roof. They need to be able to take applications online. 
They say they cannot do that. A person does not poke a hole in 
their roof and damage it just so they can get the Federal 
Government to put up a tarp over the hole. The odds of fraud 
are very low, but the costs of delay are very high because the 
next time a big rain comes through, then that thing that could 
have been a roof repair becomes a total replacement of the 
house because of mold damage. Could there be a few mistakes 
made if we do expedited procedures? Yes. But I just give you 
this as an example.
    And I will close with a final example that I would ask this 
Subcommittee to retain oversight on. We are doing debris 
removal on a massive scale, and we also have extra policing 
needs because we do not have traffic lights and we do not have 
street lights, and we want to make sure our citizens are safe. 
Believe me, our officers are complaining about the overtime. 
They are not asking for the overtime when you ask every person 
to put in overtime every night. We need to do that.
    In the past, including Hurricanes Katrina and Rita, it was 
not the people at the top, it was not the people at the bottom, 
but it was the people in the middle, generally IG or General 
Counsel, and both times we had to fight them and often not get 
reimbursed for debris removal in Hurricane Allison and in 
Hurricane Katrina because we could not prove that each log came 
from the storm. Well, it is easy to do it--I mean, if you just 
use business principles. You look at where your volume was 
before, you look at where your volume is after, and the 
difference--same thing with public safety expenditures. Give 
them the authority to use common sense.
    Thank you, Madam Chairman.
    Senator Landrieu. Thank you, Mr. Mayor.
    Let me quickly introduce Mayor Glover from Shreveport. In 
1990, he was the youngest individual to be elected to the City 
Council in Shreveport. He served there until his election to 
the Louisiana House of Representatives, where he had a 
distinguished, although short, career before his citizens 
elected him to be mayor of Shreveport. I know him to be one of 
the most able mayors in our State, and I am glad you are here, 
Mayor. Please proceed.

 TESTIMONY OF CEDRIC B. GLOVER,\1\ MAYOR, SHREVEPORT, LOUISIANA

    Mr. Glover. Thank you, Senator Landrieu and distinguished 
Senators, for giving me the opportunity to come here today and 
be a part of this distinguished panel.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Glover appears in the Appendix on 
page 57.
---------------------------------------------------------------------------
    Shreveport, Louisiana, where I serve as mayor, is more than 
200 miles from the Gulf of Mexico, and we are some 300 miles 
removed from New Orleans. So I guess the question would be: Why 
is my viewpoint here today relevant?
    Well, it is one that is probably very similar to the one 
that my fellow mayor, Mayor White, had 3 years ago with regard 
to addressing the issues of Hurricanes Katrina and Rita, the 
evacuation of our citizens to safe areas during these 
challenging storms.
    In Shreveport, we sheltered--between the city of Shreveport 
and the city of Bossier City, in conjunction with the 
Department of Social Services, Red Cross, and others--well over 
13,000 folks in shelters that had been officially stood up, and 
tens of thousands more who went into homes and hotels and 
unofficial shelters across the entirety of North Louisiana.
    I have been asked to address what went well and what did 
not in the aftermath of Hurricanes Gustav and Ike, and I would 
like to start by saying that all levels of government in this 
particular instance worked better together. We can do a lot, 
though, to improve our response to the next storm that we know 
will surely come.
    Clearly, in terms of what went right, the evacuation went 
well. Three years ago, 1.3 million people were evacuated from 
southern Louisiana; this year, almost 2 million. Unprecedented 
marshaling of resources at all different levels of government 
led by our governor, Governor Jindal, and others throughout the 
State to help effect this process.
    However, we know that there were still challenges to be 
dealt with, but I also would add that FEMA, the State of 
Louisiana, and local government, however, in this particular 
time communicated much better than we did in previous years.
    The levee systems in New Orleans, upgraded since Hurricane 
Katrina, worked just well enough. The televised scenes of water 
overtopping the flood walls in New Orleans were frightening, 
but the levees held this time. But there is still much to do to 
be able to ensure that New Orleans will be able--and the rest 
of South Louisiana--to withstand the next big storm that comes 
along. And I know that you all are well on the way, Senators, 
to addressing those issues.
    But there is, without question, much room for improvement 
in the Federal response to requests for things as simple as 
commodities. I can only imagine being the mayor of the 99th 
largest city in America, in that Mayor White is the mayor of 
the fourth largest and has some quarter million evacuees 
sheltering there, just how difficult it must have been to deal 
with the needs that we found ourselves dealing with in 
Shreveport and northwest Louisiana, issues of supplies as basic 
as towels for folks who need to be able to shower after 3 and 4 
days. Cots that were ordered on the 1st of September, towels 
that were ordered on the 1st of September, other supplies 
needed to stand up and support these shelters that were ordered 
on the 1st of September did not arrive until the 17th of 
September. Another truckload came in the day after. We had no 
way to tell which materials were on their way or when they 
would arrive. As a result, our city government and numerous 
community volunteers and churches across the area stepped 
forward to do what was necessary to make sure that those 
critical needs were met.
    Official shelters that were stood up that had no shower 
facilities ended up having to improvise as we shuttled folks 
back and forth to our high schools and our football stadiums. 
And even my city staffer improvised a shower facility inside of 
one of the buildings on-site at what was an official State 
shelter. When it became apparent that those needs were not 
being met, folks stepped forward to do exactly what needed to 
be done and to make things happen.
    I guess the one thing that I would ask as we focus on all 
of the other issues involving and impacted by the storms that 
we not lose focus on the people. Just as the storms make 
landfall, we have to recognize that all of these issues will 
end up impacting us once we have effectively gotten our folks 
to safety. Issues like health care and effectively segregating 
our populations from sex offenders and other individuals who 
have warrants for their criminal activity need to be 
effectively addressed on the front end of our evacuation 
process, so that once we get them to safety, we can ensure that 
we do not end up further victimizing individuals.
    We also need to recognize that the process of evacuating 
can be a rather harrowing one, and so when you end up with 
individuals on buses for hours, many of them disabled, and you 
recognize what do they do after the 10th and the 11th and the 
12th hour on that bus and they are in a wheelchair or they are 
an amputee or they are blind and they cannot make it to the 
restroom, what do we do for them? Those are the issues that we 
need to make sure that we keep focused on for those folks who 
have managed to be able to listen to and answer that clarion 
call to evacuate and to move forward.
    Also, once we have effectively evacuated folks and we begin 
this process of repopulating, we have to remember the stresses 
that people are still under and how do we manage to be able to 
help them effectively get home if we have asked them to leave 
and they have done so. And many of them find themselves with 
limited or no resources. How do we help them get home? Those 
who came on the buses, do they have transportation? One of the 
saddest stories that you can ever see--and I know you all have 
seen many of them--are to see those who have evacuated 
themselves, who have exhausted their resources while they have 
been where they are and have to reach out a hand, people who 
work every day but who do not have money to be able to feed 
their children, to put gas in their cars, to get back to 
devastated homes and devastated regions. We need to figure out 
how we manage to be able to help those folks as well.
    Then we also need to remember that there is, without 
question, a need for extensive wrap-around services for all of 
the folks involved so that we can make sure that we address 
their mental needs, their physical needs, and ultimately their 
social needs as well.
    Thank you, Senators, for giving me the opportunity to share 
with you today.
    Senator Landrieu. Thank you, Mayor Glover. Mayor Thomas.

    TESTIMONY OF LYDA ANN THOMAS,\1\ MAYOR, GALVESTON, TEXAS

    Ms. Thomas. Senator Landrieu and distinguished Members of 
the Subcommittee, thank you. Thank you for the opportunity to 
discuss with you Galveston's most immediate needs in response 
to Hurricane Ike, one of the city's most devastating natural 
disasters since the 1900 storm which took 8,000 lives.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Thomas appears in the Appendix on 
page 60.
---------------------------------------------------------------------------
    The city's structures--its port, University of Texas 
Medical Branch at Galveston, historic downtown business 
district, and east end, even its condominiums and second homes 
built according to our strict building codes--have withstood a 
surge equal to a Category 4 hurricane, virtually submerging the 
entire island in depths ranging from 3 to 18 feet. Although 
damaged, these structures stand testimony to the fact that 
Galveston Island is a viable, valuable piece of real estate 
that proudly, this day, flies the flag of the State of Texas 
and the United States of America.
    The seawall that was built by the U.S. Corps of Engineers 
in 1902, has proven its worth numerous times and is a constant 
reminder of the close relationship and deep appreciation 
Galvestonians feel for the government which came to their 
rescue at that time. My grandfather, Isaac H. Kempner, served 
the city's government then and sought Federal, State, and New 
York banking assistance for the shattered city. Lessons learned 
from him and his generation of Galvestonians form the basis of 
today's hurricane recovery plan.
    I must tell you that chills ran up my spine when I saw the 
name Ike selected for this year's hit list. The irony, on the 
one hand, is that I, his granddaughter, might bear the God-
awful responsibilities of helping my citizens dig out and bear 
up against a similar tragic event. The greater irony is that my 
grandfather, I.H. Kempner, was commonly called ``Ike.'' If I 
feared before, I instinctively feel now, that Hurricane Ike 
symbolizes much more than the destruction of Galveston. 
Hurricane Ike represents the rebuilding of our city.
    I appear before you to ask your help in giving Galveston 
and Galvestonians a new beginning, just as the U.S. Government 
did after the 1900 storm. We will require billions of dollars 
to rebuild all our infrastructure which took a terrible 
beating, strengthen our port, and repair and shore up the 
University of Texas Medical Branch, its hospital, medical 
school, research labs, and especially the National Biosafety 
Lab.
    These are the city's economic engines. Are they worth 
saving? Is Galveston worth saving? That is the question you 
must decide.
    Here are some reasons why Galveston is worth saving: Our 
island has a long record of coastal defense. Pirate Jean 
Lafitte took advantage of this location. It was part of 
America's defense system in the Civil War, the Spanish-American 
War, World War I, and World War II. It possesses a natural 
deep-water harbor closest to open sea lanes. The Pelican Island 
side provides frontline major offshore oil rig repair--an 
invaluable component in the Nation's major petrochemical-
producing and refinery region encompassing the Gulf of Mexico 
and East Texas.
    With adequate rail and bridging, the port can continue to 
serve this Nation, especially its exporting and importing of 
vital materials which will increase when the Panama Canal 
widening and deepening is complete in 2014.
    Gerald Sullivan, Chairman of the Port of Galveston Board of 
Trustees, will be happy to answer any of your questions 
regarding the port, and Dr. David Callender, President, will 
stand ready for the University of Texas Medical Branch (UTMB).
    I want to conclude my remarks with an appeal from my heart 
to yours. The citizens of Galveston have suffered severe 
losses. One whole section of town north of Broadway may be 
uninhabitable. An estimated 10,000 to 20,000 citizens lost 
their homes and possessions.
    We need help--lots of it--but first and foremost, we need 
you to continue your support and cooperation extended from the 
President, Members of Congress, Homeland Security, FEMA, the 
Corps of Engineers, HUD, Red Cross, Salvation Army, the Small 
Business Administration, volunteers, and many others as well. 
Together, taking the comprehensive approach you have taken 
since Hurricane Ike appeared in the Gulf, we can address human 
as well as strategic and economic needs.
    Last, I want to thank and commend FEMA. Had it not been for 
FEMA, the city would not have recovered as well as it has to 
allow me, only 8 days after the storm and on the eve of our 
citizens' returning to Galveston, to leave and come to 
Washington. Our representative, Jaime Forero, was at our side 
from day one, facilitating our response and recovery. His 
resourcefulness and ability helped to coordinate men and 
machinery, secure generators, PODS, DMAT, fuel, a disaster 
center, just to mention a few.
    Communication is always a deficit on Galveston Island. We 
had no power, no water, no natural gas, and sewage. FEMA was 
our lifeline working synergistically with State emergency 
management under Jack Colley and Sandy Coachman, the Federal 
Coordinating Officer. The Governor of Texas, Rick Perry, our 
Senators, our Representatives, and all our volunteers have done 
themselves and our Nation proud. I look forward to having 
another opportunity to come before you as we continue our 
recovery efforts and face new challenges that will undoubtedly 
require your support.
    Attached to my remarks is a detailed list of our needs and 
projects for which we are requesting funding.
    Thank you very much.
    Senator Landrieu. Thank you, Mayor.
    Our final witness on the first panel is State Senator 
Reggie Dupre, who has served in the legislature since 2001. He 
is the chief sponsor of the State of Louisiana's Coastal Trust 
Fund that was created with, in large measure, the help of 
members of this panel, most notably Senator Domenici, to help 
bring revenue sharing to the States of Louisiana, Texas, 
Alabama, and Mississippi.
    The State legislature has designed under Reggie's 
leadership a trust fund, Senator Domenici, to help do some of 
the work that has been outlined by Senator Vitter and myself 
now for years, work that needs to be done, his insights into 
the challenge of all of coastal Louisiana, although his 
district is really represented in southeast, we are here to 
hear his testimony.
    Senator thank you for joining us.

TESTIMONY OF REGGIE P. DUPRE, JR.,\1\ STATE SENATOR, LOUISIANA 
                    STATE SENATE DISTRICT 20

    Mr. Dupre. Thank you, Madam Chairman, Mr. Ranking Member, 
distinguished Members of the Subcommittee, thank you for 
extending me the great honor of testifying before you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dupre appears in the Appendix on 
page 71.
---------------------------------------------------------------------------
    Before beginning, Senator Domenici, you and I have 
something in common. Sixteen years ago, my first secret 
rendezvous with my wife, who was a resident of Dallas, was in 
Galveston. [Laughter.]
    Mr. Dupre. So I just admitted to----
    Senator Landrieu. What is it with this rendezvous, please?
    Mr. Dupre. I just admitted to the rest of the country where 
we were 16 years ago.
    My name is Reggie Dupre. I am the Louisiana State Senator 
in south-central coastal Louisiana, and my legislative district 
has the highest rate of wetlands loss of any area in the United 
States of America. I represent approximately 120,000 citizens 
in Lafourche and Terrebonne Parishes.
    I was born and raised in the same area. I also serve as 
Chairman of the Louisiana Senate Natural Resources Committee 
which has oversight over all coastal issues, including 
hurricane protection and coastal restoration.
    According to the Louisiana Conference of Mayors, Houma, 
Louisiana, the parish seat of Terrebonne Parish, will be the 
fastest-growing metropolitan service area in the United States 
in 2008 at 5.2-percent growth. For 2007 and early 2008, Houma, 
Louisiana, had the strongest real estate appreciation market in 
this country at an 11-percent rate, while the rest of the 
country was going through a real estate crisis.
    In the last 3 years, Louisiana has been hit by four major 
hurricanes. In 2005, Hurricanes Katrina and Rita struck 
Louisiana within 4 weeks of each other. Earlier this month, 
within 11 days, Lafourche and Terrebonne Parishes were 
devastated first by the winds of Hurricane Gustav and then by 
the waters of Hurricane Ike, with a 9\1/2\-foot tidal surge 
inundating much of coastal Louisiana for a hurricane that made 
landfall in the Galveston area.
    Hurricane Gustav was a direct hit upon the Terrebonne/
Lafourche area, the first time since 1965 when Hurricane Betsy 
made landfall in my parish and the eye of a major hurricane 
went through Terrebonne Parish. And even though the center of 
Hurricane Ike was over 200 miles away, the flooding from 
Hurricane Ike was the worst ever experienced in my region. For 
the first time ever, tidal water covered portions of Main 
Street in Houma, Louisiana, over 35 miles from the coast.
    Over 15,000 structures in my area alone were impacted by 
Hurricane Ike's storm surge. It might be difficult to 
understand, but we can recover quicker from Hurricane Gustav's 
100-mile-an-hour-plus winds in a direct hit than we will from 
Hurricane Ike's tidal surge that made landfall in Galveston.
    This is a quote from the Sunday, September 14 paper, my 
quote--the biggest quote I ever got in 20 years of being a 
public official: ``Worse than Rita.'' Before Hurricane Ike, 
Hurricane Rita was our worst tidal surge 3 years ago that made 
landfall in Cameron Parish.
    We are not alone in dealing with natural disasters. I want 
you to know that when Louisiana's coast is devastated by a 
natural disaster, when Louisiana is hurting, so are you.
    Lafourche and Terrebonne Parishes lie in the middle of the 
Louisiana energy corridor to the Nation. The Louisiana energy 
corridor is vital to the safety, security, and well-being of 
our country. Approximately 30 percent of this Nation's oil and 
gas supply moves through my legislative district. The simple 
truth is, based on this energy-producing value to the Nation, 
acre for acre Louisiana is the most valuable real estate in the 
Nation.
    For example, my district includes the only land access to 
Port Fourchon on the gulf, a single highway, Louisiana Highway 
1. Hurricane Katrina caused a $1-a-gallon spike in gasoline 
prices in this country. However, it has been estimated that a 
total destruction of Port Fourchon will cause a long-term $2-a-
gallon spike at the pump. The citizens of this great Nation 
cannot afford $6-a-gallon gasoline.
    I am amazed that Congress is currently considering opening 
up new offshore drilling without first ensuring the stability 
of the Nation's top production area.
    The hurricanes further devastated important nearby barrier 
islands which are critical to the protection of the coastline 
from tidal surges. Hurricanes Gustav and Ike in less than 2 
weeks have caused nearly half of the loss of our barrier 
islands. In fact, we lost one of our barrier islands, and here 
is another headline from September 16th in my local paper: 
``Terrebonne barrier island disappears after Gustav.'' It is 
gone. All that is left is a sandbar.
    In terms of lessons to be learned from what went right and 
wrong, the old adage is always true. The best way to recover 
from a disaster is to prevent it in the first place. Cleanup 
and recovery are, in the long run, almost always more costly 
than prevention.
    In terms of what went right, evacuations from Hurricane 
Gustav went very well, with the contraflow that was done by the 
State. FEMA and other State and Federal officials were embedded 
in our local Emergency Operations Centers. We learned a lot 
from Hurricanes Katrina and Rita. I think the Federal response 
was fantastic preparing for these hurricanes. For the first 
time ever, the unified command structure developed after 
September 11, 2001 was successfully implemented, I think, at 
the parish level, in Terrebonne Parish, right after Hurricane 
Gustav.
    Another success story is building codes. Everywhere I went, 
I saw where building codes were used, both commercially and 
residentially, those businesses and homes survived much better. 
So building codes do work. They are a little bit controversial, 
but they do work.
    Also, the new technologies that you all provided since 
Hurricane Katrina, especially with 700-megahertz radios, worked 
very well. I was able to speak to my sheriff 100 miles away 
from me--I was in Baton Rouge, he was in Houma--in 100-mile-an-
hour winds, and we were able to speak and communicate and able 
to get him MPs immediately because of this new technology that 
Congress provided us after Hurricane Katrina.
    In terms of lessons to be learned, behind the devastating 
hurricanes, our second biggest problem is the timing and 
bureaucracy involved in building protection projects.
    Senator Domenici. Would you say that again, please?
    Mr. Dupre. Our second biggest problem behind Mother nature 
is the timing and bureaucracy involved in building our 
protection projects. Just to go along with what Senator Vitter 
said, as stated earlier, over 2 years ago we were able to 
secure $30 million for local levees, and we have not seen a 
penny of construction yet. What we have seen, a lesson to be 
learned since Hurricanes Katrina and Rita, we have seen an 
overreaction on standards from the Corps of Engineers. Some of 
that criticism was justified; some was unjustified. But because 
of the criticism from Hurricane Katrina, they have developed 
standards which are unreachable by local and State governments. 
Now it is costing $40 a cubic yard to build levees, and we just 
cannot afford the----
    Senator Domenici. What do you mean, ``standards''? 
Standards for what and on what?
    Mr. Dupre. Traditionally, we would build levees from site 
borrow material. Now they are saying we can no longer do that, 
so we have to bring in sometimes hundreds of miles away borrow 
material, which is very expensive and the point I am trying to 
make is some levees are better than no levees, and that is 
where we are at. We cannot afford to sometimes meet these 
standards, especially for non-Federal protection.
    Senator Landrieu. Senator, I am going to have to ask you to 
wrap up. We have to move this panel forward.
    Mr. Dupre. Well, just since 1992, Madam Chairman, we have 
started our hurricane protection project from Morganza to the 
Gulf. You and Senator Vitter are very familiar with this. The 
critical mistake we made 16 years ago, citizens in my parish, 
is that we put our full faith in following the Federal rules. 
We should have just went on our own and asked for forgiveness 
instead of permission.
    My request is simple. For my area, we are asking for the 
same consideration as the New Orleans area: Full Federal 
funding of the authorized hurricane protection and coastal 
protection projects, including the Morganza project. 
Specifically, we are requesting $1.5 billion to build Morganza 
in accordance with the authorized chief's report, $150 million 
for immediate non-Federal levee needs, and approximately $500 
million to restore and protect about 50 miles of barrier 
islands with rocks between the Mississippi and the Atchafalaya 
Rivers.
    What we are looking for from the Federal Government is not 
a handout but a helping hand. We have already done a lot of 
work at the State level. You know we raised money both at the 
State and local levels from taxes. And as Windell Curole always 
says, ``Elevation is the salvation from inundation,'' as we all 
know.
    I will be happy to answer any questions. Thank you for 
having me today.
    Senator Landrieu. Thank you, Senator. I appreciate it.
    We have two more panels to finish before 12:30, and 
Senators do have questions. So I am going to ask each Senator 
to limit themselves to two questions each, and then we are 
going to move to the next panel.
    Let me ask my first question to the mayor of Galveston. 
Mayor, we have read your full testimony. You have made some 
excellent recommendations. You indicate that over 20,000 
citizens in Galveston have lost their homes. I cannot recall 
immediately how many schools and churches you have lost, but I 
am assuming it is dozens of both.
    Would you have a word to share with us about your general 
thoughts about your long-term housing needs and what we should 
focus on for you now?
    Ms. Thomas. Yes, I will, Senator. At this moment, with the 
help of FEMA and the Red Cross, our citizens are going to--most 
of them are coming back tomorrow. Some of our first responders 
are obviously already on the island. We are seeking shelter 
over in Texas City because we really cannot shelter anyone on 
the island, and our medical situation is so serious that the 
fewer people we have, the better.
    As far as housing is concerned, we are hoping to get enough 
money from HUD at some point so that we can begin to rebuild 
some of the houses that have been lost. Galveston is only 2 
miles wide and it is 35 miles long, and the entire West End, 
which is about half the island, is completely inundated and 
will not be back up probably for months.
    So we are working with FEMA to reconstruct, if you will, 
some apartment houses and that sort of thing on the island. 
Right now we are finding shelters. Long term is simply to 
rebuild some of our neighborhoods, and our neighborhoods, as I 
said earlier, on the north side of Broadway whose population is 
mostly low- to moderate-income citizens, their houses were not 
that well built to begin with. And that is where we hope to be 
able to concentrate some rebuilding for our citizens so that 
they can return home and live there, and not in a shelter.
    We are also working, of course, with FEMA on apartments and 
hotels across the State that have agreed to possibly 30 days or 
2 months' stay. I know that FEMA generally has at this point a 
30-day limit on paying bills at the hotels and apartment 
houses. I am sure we are going to need to ask FEMA to extend 
that 30-day period to possibly another month or two.
    Senator Landrieu. OK. And my last question is to you, 
Senator. Based on the request that our delegation has put in 
the Corps to expedite the building of the levees in Terrebonne 
Parish, what has the Corps told you to date about their plans 
to move forward?
    Mr. Dupre. The congressional delegation, after 15 years of 
doing their studies, finally was able to get us authorization 
in 2007, and then Congress overrode the Presidential veto of 
the WARDA bill last year. Immediately thereafter, the Corps 
said, well, this project post-Katrina is going to exceed the 
20-percent limitations from the 1986 WARDA, so they wanted to 
reevaluate the whole project. Now they are telling us as of 
yesterday they would need in excess of $1.5 billion just to 
build the authorized project, which does not meet maybe the 
100-year level of protection. But we know that, and we are 
willing to take on that liability. But we need some protection 
to secure our communities.
    Senator Landrieu. OK. Thank you. Senator Domenici.
    Senator Domenici. I want to thank you all, those of you who 
have testified with reference to the response of the Federal 
Government and the Federal Government's agencies, FEMA and 
others. I am very pleased that you have acted credibly and 
answered truthfully in stating that they have done their job 
well. We do not hear many accolades. All we heard for months 
and months, the bombardment when things did not go well. And 
the President of the United States probably was criticized more 
on that issue than anything except the war. And now it seems 
like we were hit much harder and by more, and more devastation, 
and it was handled properly, say all of you, and those that 
follow you. And I think you have to be publicly honest in 
saying the Federal Government have some laws that are not so 
good, if I understand what you think, but as far as 
implementing the laws that were there, it was done well.
    Is that true, Mayor White?
    Mr. White. So far, so good.
    Senator Domenici. Yes, sir. Well, you need the money, and 
it looks like the law says you cannot get it yet, and that is a 
flaw in the law. And we are going to give you money before you 
have everything ready, and then you will get more later. The 
law as it is written does not do very good for situations like 
this because you have to have everything bona fide-ly evaluated 
and appraised and a nice ribbon around it, and you have to give 
us a box full of shoes and say here is the size and the shoes, 
please pay it. We cannot do that because you cannot even get 
out and see the damage yet. So that is what you are saying, so 
far, so good, right?
    Mr. White. Yes.
    Senator Domenici. But so far it has been all right. Is that 
right, Mayor, the Federal Government's action to help your 
city?
    Ms. Thomas. For Galveston, our relationship with the 
Federal Government has been excellent.
    Senator Domenici. How about you, Mayor?
    Mr. Glover. My mother hates it when I put it this way 
because she is a retired school teacher and it does not quite 
meet her grammatical standards, but the way I have termed it is 
that it is ``better, but not better enough.''
    Senator Domenici. What?
    Mr. Glover. It is ``better, but not yet better enough.''
    Senator Domenici. OK. Well, that is good. I mean, that is 
``gooder, but it is not gooder enough.''
    Mr. Glover. Exactly. [Laughter.]
    Senator Domenici. I never said that to my mother, but she 
is not around or I would try it on.
    And how about you, Mr. Senator?
    Mr. Dupre. The actual response pre-Gustav and through it 
from FEMA and other Federal agencies was very good. We have 
learned a lot of lessons from Hurricane Katrina.
    Senator Domenici. All right. Now, let me ask all of you, 
and any one of you who feels like the question has an answer--
if it does not fit, do not answer it. But I look at the 
disasters over the last 12 months or so, and I happened, by 
hook or crook, from New Mexico where we are mostly dry desert 
country, I am in the middle of them. I am in the middle of 
Louisiana's offshore royalty case where we passed a law that 
has actually changed the way we are going to treat offshore 
properties forever, although we still have some holdouts that 
say what we did is not going to be done for the rest of the 
offshore. You understand what I am talking about, sir.
    But let me tell you what I am bothered by. I look out there 
and see where in New Orleans and now in Galveston, the two that 
I see most vividly in my own mind's eye, and I see hundreds of 
houses ruined. Water has already covered them, and nobody is 
going to live in them. They are hanging half down. But every 
now and then, there is a decent one that did not get it, so it 
is 50 good ones and a bad one. It seems to me that there is no 
current instrument at the State or Federal level that really 
allows you to go in and resolve the issues for that entire area 
in ways that are real, where you can own the property and pay 
off the owners and do something with it in a major planned 
manner.
    Am I correct that there is no way to do it in an organized, 
planned way but, rather, one house at a time?
    Mr. Dupre. That is exactly correct. We only react to one 
residence or one business at a time rather than entire 
neighborhoods or entire communities.
    Senator Domenici. Well, I want to tell you something, sir. 
I think you are pretty much expert on laws, and I would suggest 
to you that you look at something and see if it has any 
relevancy. For some, it is a nasty word, but I was a Republican 
mayor of a city, and I had a downtown area that would have 13 
blocks of property, and all of them were little 12\1/2\- and 
25-foot ownerships, and then there would be a big building. And 
then there would be 50 people who had bought 25-foot lots over 
the years, and so I had a downtown that could not go anywhere. 
And even though I am conservative, I borrowed the Federal urban 
renewal law and acquired all 13 blocks for the city of 
Albuquerque. We paid everybody, and there was a little 
complaint here and there, but they all got top dollar. And then 
we redid it in a way and sold it back to them, the private 
sector and the public.
    I wonder if you would look and see if you think in a flood 
disaster of certain types that something like that might be a 
relevant piece of legislation that might help in these 
situations that seem to have no end.
    Ms. Thomas. Senator, I would like to respond to that, if I 
may.
    Senator Landrieu. Go ahead.
    Ms. Thomas. Your idea, Senator, is a good one because it is 
not a house here and a house there. It is the neighborhoods 
that are gone. And if the city had the opportunity to 
revitalize neighborhoods because of help from the Federal 
Government, the people who live in those neighborhoods could 
eventually come home and have an opportunity possibly to even 
buy the house because of the Federal financing.
    Senator Landrieu. That is what these neighborhoods look 
like.
    Ms. Thomas. So your idea is a good one.
    Senator Domenici. How about the Senator there? Do you have 
anything to say about it? We want to move on.
    Mr. Dupre. And this also goes for rural areas as well as 
urban. In my district, Hurricane Gustav totally destroyed a 
small Native American community called Isle de Jean Charles, 75 
families. You may have one or two houses that survive. It is 
the same scenario you were talking about. We have to do 
something for the entirety of that Native American community.
    Senator Landrieu. And I thank the Senator. We are really 
short on time. I want to get to Senator Vitter, and then we are 
going to move onto the next panel. But this is, for the press, 
a picture of what Galveston and some parts of Cameron Parish in 
Louisiana look like and other parts of Texas look like. This is 
what New Orleans looked like, what parts of St. Bernard looked 
like, whether they are in cities, or outside.
    Now, FEMA's only answer to this right now is to pull up a 
trailer and park it right there. That is currently the FEMA 
plan.
    Let me say clearly as the Chairman of this Subcommittee, it 
is wholly unacceptable. Our delegation tried to pass a better 
plan after Hurricane Katrina, but we were thwarted. So let's 
hope when we try a second time that the message might get to 
this Administration, that we need more than trailers and 
bottled water to build communities back.
    Now, let me say, Senator Vitter, if you will go forward 
with your questions, and then we have to move to our next 
panel.
    Senator Domenici. Thank you, Madam Chairman.
    Senator Vitter. Thank you, Madam Chairman.
    First, a quick statement. Mayor White, you mentioned the 
tens of thousands of Louisianians Greater Houston so graciously 
hosted after Hurricanes Katrina and Rita. Let me say for the 
record my wife and I and our four kids were six of them, and we 
had a wonderful experience north of Houston, including a 
wonderful semester for our kids in the Sci-Fair public system. 
So thanks to all of your citizens in Greater Houston for that, 
and that certainly will not be lost on me as we deal with 
Hurricane Ike.
    Mayor White and Mayor Thomas, I wonder if you could briefly 
comment on the significance in your mind of tools on the tax 
side, particularly regarding rebuilding and housing needs, 
things like GO zone-type incentives and low-income housing tax 
credits.
    Ms. Thomas. I am going to let Mayor White go first because 
he is probably better versed on this subject than I am, and 
then I will follow up and say whether I agree with him or not. 
[Laughter.]
    Mr. White. On the low-income housing tax credits, it is 
important to have some extra allocations, but you know the 
underwriters who purchase those are no longer in business. Some 
of the firms syndicated will be part of other hearings that I 
am sure you will attend. So I will personally try to get some 
large corporations and money pools if we are given an 
allocation. So we might be the broker and intermediary. It is 
helpful, but the markets have seized up, so you are going to 
have to innovate, and I am willing to do that if we get an 
allocation.
    And your first point had to do with tax incentive zones?
    Senator Vitter. Like the GO zone for Hurricanes Katrina and 
Rita, significant incentives on the tax side.
    Mr. White. Yes, I mean, at the same time, Senator, we need 
help from the Federal Government to get back on our feet. At 
the same time, the fiscal set-up in the State of Texas that 
Governor Dewhurst and others are well reminded by, we pay for--
out of our property taxes, we pay for our schools, our police, 
our infrastructure, our uninsured health care, our public 
facilities out of our property taxes, and mayors cannot really 
control the fiscal regime of the State, and there are some pros 
and cons. But if some people do not pay taxes, then other 
people are going to have to pay more taxes. And so I would just 
say that we have used tax incentives in the past, but if you 
are so heavily reliant on property taxes and then you have tax 
holidays--we would love it if the Federal Government were 
willing to just give us fiscal support forever, but we know 
that is unrealistic, and we probably need the help quickly so 
we can get back on our feet so people can be self-sustaining in 
the local community. That is what we need.
    Senator Landrieu. I am going to have to call this panel to 
a close. Thank you very much. I really appreciate it. I am 
particularly encouraged that all of you have testified that 
FEMA has improved, and the coordination between governments in 
large measure this Subcommittee helped along with many other 
committees to contribute to that. But I fear that we have a 
long way to go in these recovery efforts.
    Thank you very much.
    Senator Landrieu. Can we now hear from the lieutenant 
governors of the respective States, please? And as they are 
coming forward, both of these lieutenant governors are speaking 
on behalf of their governors and States, have been designated 
by each of their governors to appear today to give an overview. 
And we will begin with the Lieutenant Governor of Texas, who 
has been previously introduced by Senator Hutchison. And then 
let me take a moment to introduce the Lieutenant Governor of 
Louisiana.
    He currently acts as CEO of the Department of Culture, 
Recreation, and Tourism, managing more than 800 employees and a 
$165 million budget. Prior to this, he served 16 years in the 
legislature, and he also serves as a member of the Governor's 
Office of Homeland Security Unified Command Group. I am very 
proud of the way that this lieutenant governor and governor 
worked together to help our citizens prepare for an 
extraordinary evacuation and reentry and now rebuilding after 
these storms. And I welcome you, Lieutenant Governor Landrieu 
and Lieutenant Governor Dewhurst.
    And if we can start, as agreed to, with the Lieutenant 
Governor of Texas. And if you all could limit your statements 
to 5 minutes each, and we may or may not have rounds for 
questions, we will just see, because we do have one additional 
panel of FEMA and Corps officials, of course that we are 
anxious to get to.
    Lieutenant Governor, thank you for being here.

 TESTIMONY OF DAVID DEWHURST,\1\ LIEUTENANT GOVERNOR, STATE OF 
                           LOUISIANA

    Mr. Dewhurst. Thank you, Madam Chairman. Senator Domenici, 
thank you for being here. Thank you for your service to New 
Mexico and to our country. Senator Vitter, my pleasure, sir.
---------------------------------------------------------------------------
    \1\ The prepared statement with attachments of Mr. Dewhurst appears 
in the Appendix on page 75.
---------------------------------------------------------------------------
    I want to speak about the impact of Hurricanes Gustav and 
Ike and the performance of our Federal, State, and local 
agencies.
    Regarding Hurricane Gustav, Madam Chairman, we had spent 
tens of millions of dollars in Category B, Emergency Protective 
Measures, before we knew with certainty that Hurricane Gustav 
would make landfall in Louisiana, at which point we provided 
personnel, supplies, and resources to help our friends in 
Louisiana.
    Our attention shifted immediately to Hurricane Ike. As you 
know, Hurricane Ike struck the Texas coast nearly 2 weeks ago 
in what was one of the worst natural disasters in the history 
of the State of Texas. It affected 22 counties, 20,000 square 
miles in size, an area larger than the States of Rhode Island, 
Delaware, Connecticut, and New Jersey combined.
    In this process, we moved 1.2 million people, 12,500 
special needs with ambulances and C-130s. We prepositioned 
equipment over 300 miles, as the storm moved from Brownsville 
in South Texas all the way up to Beaumont near your border. We 
conducted the largest search and rescue effort ever in the 
history of the State of Texas. We saved more than 3,540 lives. 
We had 254 shelters up across Texas at a height of 40,000 
people. We had 60 points of distribution outstanding, and one 
of the things I wanted to point out was our whole intent with 
our distribution facilities was to put them in the heaviest 
impact areas such as Galveston, Orange, Bridge City, and 
Chambers County and southeast Harris County.
    Now, people have asked--this was a Category 2 hurricane, 
but it was a Category 4 surge, completely washing over low-
lying communities such as Galveston and Orange. In preparation 
for the economic impact, we have asked 770 cities in 22 
counties that were in the storm's path to submit our cost 
estimates. But due to the fact that most of the cities and 
communities are still restoring their basic services, we only 
have cost estimates from 95 of the 770 cities.
    Our first preliminary schedule which we are providing to 
you today is approximately $11.5 billion in direct costs to the 
State of Texas, the 22 counties that are affected, and the 770 
cities which we believe are eligible for reimbursement. The 
$11.5 billion estimate on direct costs does not include any 
number from the city of Galveston, which to date has yet to 
respond to the State's request for information. The city of 
Houston has turned in a preliminary number of $16 million, and 
we think that is going to increase.
    The second schedule which we are giving you today shows the 
total economic impact to the State of Texas with a breakout by 
all 22 counties of $27.5 billion. We think that number will 
rise to approximately $35 billion.
    Now, I want to thank you for the 100 percent reimbursement 
on Category A, the debris removal. Our problem, Madam Chairman 
and Senators, is that it is only for 2 weeks retroactive to the 
disaster declaration. And as you heard from the mayors before, 
there is huge debris covering an area almost the size of the 
State of New York. I have been there. I have seen it. We have 
got homes that were destroyed with 8 feet of water going 
through. Texas respectfully asked for at least 60 days on 
debris at 100 percent.
    Second, we need help in our infrastructure, 100 percent 
reimbursement on Categories C, D, E, F, and G: Roads, water 
control facilities, buildings. In a heavy impact area, 
thousands of buildings, most water treatment plants, sewage 
systems, power lines were all knocked out.
    On individual assistance, Texas was granted 100 percent for 
30 days. As you heard from the mayor of Galveston, we need more 
than that. We have got 57,000 people in Galveston that have 
been evacuated, 18,000--we still have 14,000 in shelter. It is 
going to take us months until Galveston, Orange, and the other 
heavy impact areas are habitable. And we ask that this time 
period be extended.
    We have got a critical shortage of housing near the heavy 
impact areas. I have spoken with Senator Hutchison this morning 
and FEMA. There are trailers--we are going to make a request to 
FEMA today for trailers. There has been a problem in the past, 
as you know from Louisiana, with formaldehyde in some of the 
trailers at a level too high for human habitation. As long as 
those trailers meet our State safety requirements, we want 
every one that we can get our hands on other than those that 
are needed by our friends in Louisiana.
    Let me just say that I share with your earlier panel my 
compliments on our Federal partners. I want to say thank you to 
the Red Cross and Salvation Army. They are going through a 
tough time right now. There have been a lot of natural 
disasters, but they have really stepped up as a partner.
    FEMA is critical to our recovery, and Governor Perry and I 
appreciate all of their work. We understand that the State of 
Texas' role is that of a first responder: Pre-planning, 
evacuation, positioning our assets, conducting search and 
rescue. But we also know that FEMA is best equipped to lead in 
the recovery. So we will continue to work with FEMA and our 
other Federal partners, and we are going to have to rely on 
FEMA's expertise and, frankly, its resources to help us provide 
housing, disaster and employment assistance, crisis counseling, 
Small Business Administration loans, and other forms of 
assistance.
    So this has been the most devastating storm in certainly 
the last 50 years for Texas. We need your help, and thank you 
for your concern and my being able to speak with you today.
    Senator Landrieu. Thank you. Lieutenant Governor Landrieu.

 TESTIMONY OF MITCH LANDRIEU,\1\ LIEUTENANT GOVERNOR, STATE OF 
                           LOUISIANA

    Mr. Landrieu. Thank you, Lieutenant Governor Dewhurst, for 
those words, and, Madam Chairman and Senators, thank you so 
much for having us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Landrieu appears in the Appendix 
on page 84.
---------------------------------------------------------------------------
    I do first want to say on behalf of the people of Louisiana 
how much we appreciate our friends from Texas. I think Senator 
Vitter alluded to this, and, Senator Landrieu, you know this 
well, that after Hurricanes Katrina and Rita, the State of 
Texas, and especially Mayor White and so many other leaders, 
really reached out to us and helped us in a tremendous way, and 
we stand here today in communion with and in solidarity with 
all of our friends from Texas as a result of the damage they 
sustained from Hurricane Ike.
    As you know, the State of Louisiana sustained two storms, 
Hurricanes Gustav and Ike, and in the last 3 years, we have now 
been under the hammer of four successive, debilitating storms, 
the cumulative effect of which has been able to put every 
parish in Louisiana under emergency declaration. So when you 
combine the damage from Hurricanes Gustav and Ike, I believe 
that all 64 parishes were declared in the emergency. In 
Hurricanes Gustav and in Ike, we have 14.
    Notwithstanding the fact that the levees held in New 
Orleans--I think Senator Landrieu alluded to this earlier--and 
the TV cameras left, there has been extensive damage in North 
and South Louisiana. As a matter of fact, at one moment during 
the storms, we had deployed search and rescue missions all the 
way south and all the way north and were, in fact, evacuating 
and doing search and rescue missions in North Louisiana that 
had not seen water there in a very long time.
    The agricultural community in Louisiana is completely and 
totally devastated in North and South Louisiana, not once but 
twice. So we understand Texas' pain, and we are here to, again, 
stand in solidarity with them as we try to speak to you, the 
leaders of the Federal Government as we seek assistance.
    As you know, there are a number of different components, 
Senator, to what we talked about. There, of course, is 
preparation. Then there is evacuation. Then there is immediate 
response, search and rescue, and then there is rebuild. Some 
things worked better this time; some things did not. And we 
need to focus on them as well.
    In Louisiana, as you know, 443 people were rescued; 51 
people were lost; 25,000 homes were damaged. The estimated 
economic impact is $20 billion, $1 billion alone to the 
infrastructure; 217 square miles of the coast were lost in 
Hurricanes Katrina and Rita and more in Hurricanes Ike and 
Gustav. And as we talk about Louisiana and Texas being our 
Nation's energy coast and as the Nation really debates about 
our energy independence, it seems inconsistent not to spend a 
lot of time preserving what it is that you have before we fight 
about what we want in the future.
    Louisiana, as you know, has submitted detailed documents to 
the Senate about the recovery needs that we have. 
Unfortunately, we are physical testament to what we know Texas 
is going to be asking the Federal Government for because, as 
you know, we have been arguing and fighting and working with 
all of you to do that. But the basic categories are, as 
Lieutenant Governor Dewhurst said, a declaration of 100-percent 
cost share. You have communities in Louisiana that are on their 
backs that have for the last 3 years just gotten back to even 
and are now struggling with being able to cover that cost 
share, and it is going to be very difficult to do.
    We are asking for funds for infrastructure repair and 
coastal restoration. As you hear Senator Dupre speak about 
earlier, the issue here is pay me now or pay me later. I think 
Senator Vitter alluded to this before, that $30 million was 
allocated for some levees in South Louisiana, and had they been 
built, most, if not all, of the damage that occurred during 
Hurricanes Ike and Gustav would not have occurred. It costs a 
lot more money to do it on the back end than on the front end.
    Of course, the agricultural and fishery industries--we 
produce 30 percent of that for the Nation--are on their backs 
and need help.
    Emergency preparedness and readiness, I have to tell you 
that the National Guard, the State Police, NORTHCOM did a 
tremendous job in responding immediately to the disasters. And, 
of course, the health care and social services, many hospitals, 
private hospitals stayed open and alert and took care of our 
health care needs, and they need help as well.
    Generally speaking, in any type of homeland security 
emergency, you have three major areas that you have to pay 
attention to: One of them is clear command and control; one of 
them is coordination; and one of them is communication. And I 
must say that on all levels in government, across the levels 
themselves and between and amongst governments, everybody did a 
much better job this time responding to the immediate crisis. I 
think that there is open debate and serious open debate about 
whether or not the preparation was adequate enough on the 
prevention side, and we will find out on the rebuild side 
whether or not things have been changed significantly enough, 
as so many people have said, to move money from where you have 
it to on the ground quickly enough.
    There were a couple of things that FEMA did much better 
this time in partnership with the State and Federal 
Governments. One of them was developing the emergency plans 
over the past 3 years. The second was the support for the 
emergency transportation. And the third was on-site assistance. 
Secretary Chertoff came down early, Chairman Paulison came down 
early, and President Bush, as you know, was there. But there 
were a couple of things that were difficult. The flow of the 
commodities and getting food to the ground was difficult. The 
delay in the pre-landfall declaration took longer than it 
should have. And, of course, the delay in the 100-percent cost 
share request is making it very difficult for communities to 
stand themselves back up.
    As we work through the next couple of months, we look 
forward to working with all of you to try to make this work 
better and faster and to try to get people back into their 
homes and back into the normal course of their lives as quickly 
as we can.
    Again, we thank you for your attention. We look forward to 
working with you, and we would be happy to answer any questions 
that you have.
    Senator Landrieu. Thank you.
    Senator Vitter, I am prepared to pass on questions for this 
panel to allow time for us to hear from our Federal witnesses--
is that OK? But if you all can stay around until at least 12 
o'clock, I know we have a delegation meeting. I thank both of 
you for giving a very good overview of the damage in both of 
your States. Thank you, Lieutenant Governor Landrieu and 
Lieutenant Governor Dewhurst. And we will submit post-hearing 
questions to each of you, because part of your testimony is 
helping us to shape the aid package. So please be expecting 
some questions to each of you.
    Mr. Dewhurst. Thank you.
    Mr. Landrieu. Thank you very much.
    Senator Landrieu. If panel three will come forward, our 
first witness on panel three is Deputy Administrator and Chief 
Operating Officer, Harvey Johnson of FEMA. He came to FEMA in 
2006 after retiring as Vice Admiral of the U.S. Coast Guard 
where he served as commander for the Pacific Region.
    Our second witness is Ed Hecker, who is the Director of 
Homeland Security for the U.S. Army Corps. He has served as 
Chairman of the Infrastructure Security Partnership to promote 
critical infrastructure resilience since 2006. We particularly 
look forward to your testimony as you have heard from these 
lieutenant governors about the area of this disaster being in 
the middle of America's energy coast and the importance of the 
infrastructure protection, not just levees but diversion 
projects and flood control that help this region to continue to 
benefit the Nation. Sitting with Mr. Hecker today is Mr. Loew, 
Director of the Civil Works Program, Integration Directorate of 
the U.S. Corps of Engineers. He is responsible for program 
development, defense, and execution of the Corps' water 
resources development mission.
    I am going to ask each of you to make very brief, 2-minute 
opening remarks. Then we are going to get to a series of 
questions. Mr. Admiral Johnson, if we can begin with you.

 TESTIMONY OF HARVEY E. JOHNSON, JR.,\1\ DEPUTY ADMINISTRATOR 
AND CHIEF OPERATING OFFICER, U.S. FEDERAL EMERGENCY MANAGEMENT 
                             AGENCY

    Mr. Johnson. Good morning, Senator Landrieu and Members of 
the Subcommittee. I appreciate the opportunity to provide 
comments on the combined activities of Federal, State, and 
local efforts to respond and recover from Hurricanes Gustav and 
Ike.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 93.
---------------------------------------------------------------------------
    These storms served as a prep for the most severe test of 
national, State, and local individual preparedness since 
Hurricanes Katrina and Rita, and where the 2005 storms exposed 
the Nation's lack of preparedness, indecision, and an absence 
of coordination across all levels of government and among 
individuals, the test of Hurricanes Gustav and Ike presented 
just the opposite. The response and thus far the recovery from 
these 2008 storms provides evidence of extensive levels of 
preparedness, decisiveness by elected and appointed officials 
at every level of government, as well as citizens who elected 
to evacuate in record numbers, and a level of engaged 
partnership among States with the Federal Government that put 
the right capability in the right place and at the right time 
to save lives and property, minimize damage, and establish a 
much smoother road to recover.
    I think there are three keys to the success of our combined 
efforts. The first is preparedness. FEMA and our Federal 
partners view preparedness very seriously. We worked 
purposefully together to coordinate, assess, plan, train, 
exercise, and evaluate to ensure that we each had the level of 
preparedness independently and interdependently needed to 
achieve success in this recovery.
    The second of three keys is solid command and coordination 
or the command and control capabilities at the Federal, State, 
and local level. The emergency management structures in the 
State of Louisiana, Texas, Mississippi, Alabama, and Florida 
are impressive. They were forward looking. They executed their 
checklist thoughtfully and methodically. They adapted with the 
changing route and intensity of the storms, and they provided 
the public with the timely and consistent warnings and 
messages.
    At the Federal level, consistent with the National Response 
Framework, we were fully integrated into a unified command with 
the State. Our FEMA coordinating officers were predesignated, 
they were predeployed and worked seamlessly with the State 
senior coordinating officer. I wish to note that the governors, 
the parish presidents, the mayors, and elected officials 
fulfilled their responsibilities visibly and decisively as 
commanders, coordinators, and communicators.
    Secretary Chertoff was deployed to both States prior to and 
immediately following both hurricanes, as was Administrator 
Paulison. They encouraged evacuation, provided reassurance that 
all Federal actions that could be taken were being taken. And 
they actively guided the response and recovery through a number 
of challenges and trying moments, forthrightly, with 
directness, and without name calling or finger pointing.
    The third of the keys to this combined response was the 
strength of partnerships among Federal agencies and the State 
and local communities. From the Secretary to the governors to 
the mayors, from coordinating officer to the State coordinator 
officer, and consistently to the field level where individual 
team members coordinated air, bus, and train evacuations, 
planned out the delivery of commodities, registered evacuees 
into shelters, established feeding kitchens, evacuated 
hospitals and nursing homes, opened field medical stations, the 
combined activities of Federal, State, and local efforts were 
impressive and well performed.
    Madam Chairman, I do not want to view the response and 
recovery from these hurricanes through rose-colored glasses, 
but the level of preparedness, the command and coordination, 
and the strength of partnerships did serve the Nation well. 
Collectively, we demonstrated capability to respond effectively 
to the disaster. At times, these efforts were admittedly a bit 
rough. Not all things went according to plan, and we learned 
many lessons. We were challenged to get all our commodities to 
the right place at the right time. We learned that evacuation, 
for all of its challenges, can sometimes be easier than 
managing reentry of evacuees back into damaged and marginally 
safe communities and homesteads. And we now know that we need 
to strengthen elements of our workforce and find ways to make 
the registration process more timely and efficient. But from 
where I sit, the public was well served, and we made great 
strides at instilling confidence that the Federal, State, and 
local emergency management systems can work together 
effectively.
    Senator Landrieu. Thank you, Admiral.
    Mr. Hecker, I am going to have to ask you to summarize your 
remarks. I know we told you 5 minutes, but we have run short on 
time. So try to summarize in 2 minutes, if you would.

  TESTIMONY OF ED HECKER,\1\ CHIEF OF HOMELAND SECURITY, U.S. 
ARMY CORPS OF ENGINEERS, ACCOMPANIED BY GARY A. LOEW, DIRECTOR, 
CIVIL WORKS PROGRAMS INTEGRATION DIRECTORS, U.S. ARMY CORPS OF 
                           ENGINEERS

    Mr. Hecker. Certainly. I am the Chief of the Homeland 
Security Office for the U.S. Army Corps of Engineers, and I 
welcome this opportunity to present testimony on behalf of the 
Corps of Engineers.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hecker appears in the Appendix on 
page 106.
---------------------------------------------------------------------------
    The Corps is part of the unified Federal, State, and local 
team that knows the emergency procedures and mission timelines 
and has exercised those procedures frequently. I believe the 
performance of both the unified response system and the overall 
team during these two events, combined with the highly 
successful evacuation process, speaks to the success of our 
efforts to be ready for a flood, hurricane, and other events.
    Under the National Response Framework and in support of 
FEMA, the Corps has installed over 190 generators in the States 
of Texas, Louisiana, and Mississippi to provide temporary power 
to critical public facilities. We were able to begin installing 
these generators the same day that Hurricane Ike made landfall 
in Texas, which is unprecedented.
    The Corps has also worked at FEMA State and local agencies 
to develop a phased approach to debris management for rapid 
cleanup.
    For both Hurricanes Gustav and Ike, the Corps supplemented 
the States' efforts to provide drinking water and ice. The 
Corps is also supporting important missions to meet the public 
needs for temporary roofing and housing in support of FEMA, as 
previously mentioned. Temporary roofing is an important mission 
for the impacted population, as mentioned by a previous panel, 
since it protects property and in many cases allows people to 
reenter and live in their homes. In Louisiana alone, we have 
provided temporary roofing to over 3,000 homes to date, and we 
have now initiated that mission support to impacted counties in 
Texas.
    In terms of work under the Corps' authorities, the Corps 
Navigation Team worked in partnership with the U.S. Coast 
Guard, the National Oceanic and Atmospheric Administration, the 
Gulf Intracoastal Canal Association, and the shipping industry 
as part of the Texas Joint Hurricane Response Team to survey 
and open the ports and coastal waterways impacted by Hurricane 
Ike.
    We did a similar task force effort as part of the response 
to Hurricane Gustav to work with the Coast Guard to quickly 
open ports and waterways. The Coast Guard is the responsible 
agency for making decisions on whether ports are open or closed 
and for establishing channel depth restrictions. The Corps has 
the lead responsibility for conducting and reporting channel 
condition surveys, removing sunken vessels in Federal channels, 
and performing maintenance dredging.
    There was seamless coordination between these agencies on 
survey results enabling the Coast Guard to issue Marine Safety 
Information Bulletins to reopen the channels and establish 
depth or other restrictions.
    Senator Landrieu. I am going to have to ask you to submit 
the remainder of your statement for the record, please.
    Mr. Hecker. OK.
    Senator Landrieu. Thank you. Mr. Loew.
    Mr. Loew. I have no opening statement.
    Senator Landrieu. Thank you very much.
    Let me start with you, Mr. Johnson, and I appreciate that 
the process worked significantly better than it has in the 
past, and in large measure because for 3 years members not only 
of this Subcommittee but other committees, sometimes working 
with FEMA and sometimes pushing FEMA to places it did not want 
to go, I think laid out some new policies and procedures that 
obviously have helped.
    But my first question to FEMA is: How did you all declare 
some parishes entitled to 100-percent reimbursement and others 
not? And let me specifically ask it in this way: The day after 
Hurricane Gustav made landfall, Governor Jindal of Louisiana 
asked the President to provide debris removal assistance to all 
64 parishes and individual assistance to 54. Within 24 hours, 
FEMA concluded that only 34 parishes were eligible for debris 
removal and only 36 parishes for individual assistance. Of 
course, when people are left off, they ask why. We asked on 
their behalf. And then since that time, several, but not all, 
parishes have been added. I want to specifically ask you what 
data was used within the first 24-hour period to make the 
original declaration. Were the same types of data required from 
each parish? And how is it possible that FEMA declared some 
parishes eligible within 24 hours of the governor's original 
request, but took weeks to add others and still has not 
finalized that process? And then I am going to ask the 
difference between the 100-percent reimbursement given to the 
counties of Texas, and the 75/25 cost split for parishes in 
Louisiana affected by Hurricane Ike. Can you please respond?
    Mr. Johnson. Yes, ma'am. Certainly I think this is a good 
news story in that typically, as you are aware, with a 
declaration for an emergency disaster, we require preliminary 
damage assessments typically for every county to be declared. 
In this case, with a major storm and the damage apparent, in 
less than 24 hours we were able to provide the first 
declaration back to the State. And what we used was two primary 
factors: Using reports from the Weather Service, we plotted 
every county that was affected by hurricane force winds; and, 
second, those counties that were affected immediately by storm 
surge. And, again, in less than 24 hours, we provided that 
declaration to the State.
    Then we followed typical standard procedure in that those 
counties that were not declared initially are conducting 
preliminary damage assessments. And we have added a number of 
counties on as a result of getting the information that 
demonstrates the level of devastation or damage that has 
occurred.
    Senator Landrieu. OK, but let me ask you to just put your 
attention to this chart here, and if the staff will point this 
out, you have declared these 14 parishes in Louisiana entitled 
to basically the next level of recovery on September 13. But 
you did not declare all these parishes in the first sort of 
pre-land declaration, because obviously--if you will put up the 
other chart--there was some miscalculation made that was not 
corrected until September 18.\1\
---------------------------------------------------------------------------
    \1\ The chart referred to appears in the Appendix on page 152.
---------------------------------------------------------------------------
    So if you just look, it is very clear to see. These are the 
four parishes that FEMA declared based on your estimate of 
where the storm would hit of what would happen.
    Now, you made a wrong estimate. I do not know what you 
used, but you made a wrong estimate, because by your own 
calculations these parishes are the ones that actually took on 
substantial damage. Yet, FEMA did not change their Category B 
reimbursement schedule until September 18, 2008.
    So what is it going to take for you all to do that?
    Mr. Johnson. Well, first of all, I think those four 
counties are probably correct, four parishes correct, in the 
first declaration for Hurricane Ike. And then I believe the 
record could show that immediately after the President awarding 
the declaration, Administrator Paulison added several parishes 
to the Hurricane Ike declaration.\1\
---------------------------------------------------------------------------
    \1\ The Declaration Timeline for Hurricane Ike--Louisiana, 
submitted by Mr. Johnson appears in the Appendix on page 112.
---------------------------------------------------------------------------
    All of the parishes that had impact are now currently 
conducting preliminary damage assessments, and when those are 
completed, under Administrator Paulison's authority, he can add 
those counties.
    Senator Landrieu. So are you testifying today that these 14 
parishes in Louisiana will be granted the full declarations?
    Mr. Johnson. No, I am not. I am saying that--and, again, I 
do not recall exactly which parishes were in the initial 
declaration which have already been added on.
    Senator Landrieu. These were in the initial declaration, 
these green parishes.
    Mr. Johnson. And I believe some have already been added on. 
I just do not recall the names of----
    Senator Landrieu. Let me suggest to you, Admiral, that in 
order for this recovery to be conducted according to the 
general rules, these designations are the first step. Then 
everything else follows, as you know: What they are entitled to 
in terms of reimbursement, etc.
    If this is not corrected within a very short period of 
time, I can promise you our situation in Louisiana is not going 
to get off to a good start.
    Mr. Johnson. Senator, as you know, the preliminary damage 
assessments, many have been completed. I have not yet seen the 
data that came from those. But as soon as we get those damage 
assessments in and evaluate them, then we would be able to add 
on those counties that meet the criteria. And we certainly are 
willing to--we want to do that, but it is not our job to ensure 
that the law and regulations are applied appropriately in all 
disaster events.
    Senator Landrieu. Have all the damage assessments come in 
from the Texas counties? They have not even entered Galveston 
yet.
    Would you all put the map of Texas indicating which 
counties have been declared eligible for Federal disaster 
assistance up there, please?\2\
---------------------------------------------------------------------------
    \2\ The map of Texas appears in the Appendix on page 153.
---------------------------------------------------------------------------
    Mr. Johnson. We applied the exact same methodology to Texas 
as we applied to Louisiana. In the initial declaration, those 
counties that were immediately affected by hurricane storm for 
winds and those affected by tidal surge were within the first 
24 hours provided a declaration. We used the exact same 
methodology to do it so there would be equality between the 
States and the initial declaration. In Texas, as in Louisiana, 
they are conducting preliminary damage assessments today in 
those counties that were not included in the initial 
declaration. And I believe we have added on a number of 
counties in Texas, as we have added on parishes in Louisiana 
based on those preliminary damage assessments (PDAs).
    Senator Landrieu. My next question to the Corps is about 
this $30 million allocation to Terrebonne Parish. We allocated 
that funding actually through Senator Domenici's Appropriations 
Subcommittee, of which he has been Chairman and Ranking Member 
and on which I serve.
    What is the status of that funding now? And has the parish 
asked you to release that money to them to get their non-
Federal levees built? And are you willing to do it? Mr. Loew.
    Mr. Loew. I will take that question, yes, Senator. The 
status is that since the funding was made available, we have 
been working with Terrebonne Parish to define, first of all, 
the portion of levees that would be repaired with those funds, 
they have approximately 100 miles of levees, and we have 
settled now on two reaches of those levees that look like they 
are a good candidate for repair. We have done initial borings, 
site investigations, and other engineering work associated with 
those, and we have been actively working with the parish to 
identify borrow sites.
    The slowdown we have had recently is that of the borrow 
sites identified, we have been unable to get rights of entry so 
that we can do the engineering investigations on the borrow. We 
were recently down to two sites that we are working actively 
with Terrebonne Parish on now.
    Senator Landrieu. Would you be willing to pursue a pilot 
project in order for us to expedite this construction, which 
would amount basically to turning over the funding to 
Terrebonne Parish much in the same way that we allocate funding 
through the national transportation formula and allow them to 
do the engineering work, in light of the fact that we have 
failed this parish and many other coastal areas by not being 
able to build these projects more quickly, which is evidenced 
by the storm that hit. We need no more evidence than that. Are 
you at least open to a pilot project that we might try in 
Terrebonne Parish?
    Mr. Loew. Since Senator Vitter's letter, we briefly looked 
into that, and it is my understanding, Senator, that we do not 
have the authority to grant the money to the parish.
    Senator Landrieu. Would you be willing to ask for such 
authority?
    Mr. Loew. Right now I am not sure that it would speed 
things up at all if we did ask for it, but it is certainly 
something we could consider.
    Senator Landrieu. OK. Senator Vitter.
    Senator Vitter. Thank you. I obviously want to follow up on 
that.
    First of all, the $30.024 million figure did not come out 
of thin air. It was based on specific priorities and specific 
plans from levee officials in the parish and at the State 
level, and those develop plans were given to Congress, and the 
money was appropriated. And those develop plans were given to 
the Corps. So why are you essentially putting that on the side 
and essentially ignoring it to start from scratch?
    Mr. Loew. Sir, I do not believe we are. We have worked with 
the parish, accepted their plans. Initially, they gave us four 
reaches to look at. We have since narrowed that down to two 
that we are actively pursuing now.
    Senator Vitter. Well, the plans I am talking about, which 
were provided to the Subcommittee here and provided to the 
Corps, were for $30.024 million So obviously there is some 
miscommunication because it precisely defined the work and the 
costs we are talking about. Are you aware of that? And did the 
Corps consider moving forward with those plans?
    Mr. Loew. Yes, sir, we have. We have been actively working 
with the parish since the funds were received. We have had 
multiple meetings with them--again, working with them to decide 
which are the best reaches to work within the funds available.
    Senator Vitter. Why was a study initiated through Southern 
University?
    Mr. Loew. We did not actually initiate a study, sir. 
Southern University has a geotechnical lab that is qualified to 
do geotechnical work for the Corps of Engineers. And the work 
that they have done for us includes site investigations, 
borings, technical analysis of the borings, and so forth.
    Senator Vitter. But additional funds were funneled through 
Southern University for other purposes and subcontracted out. 
And why was that done?
    Mr. Loew. Well, often on our work, multiple contractors 
will be working on the same piece of work, and in this case 
there is an additional contractor called Shaw, which is 
advising Southern University on project management procedures 
primarily. They are also helping with the engineering 
investigation.
    Senator Vitter. Whose decision was it to structure this way 
and to involve these entities?
    Mr. Loew. I would have to answer that for the record, sir. 
I am not sure.
    Senator Vitter. OK. If you could please follow up with me, 
particularly before my meeting tomorrow with General Van 
Antwerp.
    Mr. Loew. Yes, sir. I certainly will.
    Senator Vitter. What amount of money has been expended on 
all of that? Do you know that answer?
    Mr. Loew. Yes, sir. Approximately $1.2 million has been 
expended out of the total to date.
    Senator Vitter. $1.2 million?
    Mr. Loew. Yes, sir.
    Senator Vitter. To the sources we are talking about, 
Southern and/or Shaw?
    Mr. Loew. A portion of it, most of it to them, and then 
some for our additional management of the project as well.
    Senator Vitter. OK. In my letter, I specifically asked for 
every scrap of paper which constitutes written work product 
from that amount of money expended, which in my opinion has 
been a complete waste. Has that paper been amassed yet?
    Mr. Loew. I do not believe we will have all of it for you 
tomorrow, sir, but we are working on compiling it, yes.
    Senator Vitter. OK. To go back to the request that this 
essentially be turned over to the parish and the State, I would 
note that my letter in the third to last paragraph is very 
specific, and the request it makes is something which is 
absolutely within the authority of the Corps. And it says, ``I 
want the Corps to enter into a Memorandum of Understanding with 
State and parish flood control officials so that every cent of 
the $30.024 million can be essentially transferred to them to 
start construction based on their fully developed plans.''
    Doesn't the Corps have authority to enter into a Memorandum 
of Understanding, not write a check to them and walk away from 
it, but enter into a very simple document where the Corps has a 
role but a limited role and allows progress to move forward at 
a much more rapid pace under the leadership of parish and State 
officials?
    Mr. Loew. Sir, that is a good question, and, again, I 
checked into it very briefly since receiving your letter, and 
it is my understanding that we do not, that we cannot transfer 
our executive agency authority to execute this work. So I 
believe the only way we could do it is if we were to basically 
open it up for a public bid and then let the parish bid on it.
    Senator Vitter. You cannot work with partners on projects? 
Don't you do that all the time with private contractors?
    Mr. Loew. Yes, sir.
    Senator Vitter. So why can't you have a Memorandum of 
Understanding with parish and State officials to move forward 
based on their developed plans?
    Mr. Loew. Where we do work with partners is generally on 
cost-shared work where they provide a part of the cost share of 
the total project and they can provide what are called in-kind 
services, that is, work they do themselves can be applied 
against the project. In this particular case, it is 100 percent 
Federally funded, and that is why I do not think it applies.
    Senator Vitter. Well, maybe you missed another part of my 
letter which noted that the parish and the State have now 
amassed three to four times the amount of money we are talking 
about from the Federal Government, which they want to 
contribute to meeting their own flood control needs. So, in 
fact, just in dollar terms, not only is this a partnership, but 
now the Federal Government, because of dragging its feet, are 
the junior partner in dollar terms. So under this scenario, why 
can't the Corps enter into a Memorandum of Understanding to 
allow this to happen on a much quicker pace?
    Mr. Loew. Sir, I think what I would suggest--in a day, I 
was not able to find a way to do that. But if you will allow us 
to look into it in more detail, we will investigate that.
    Senator Vitter. Well, great. I look forward to you all 
finding a way in 2 days, and I look forward to meeting with 
General Van Antwerp tomorrow afternoon.
    Senator Landrieu. Thank you, Senator Vitter.
    Our time is almost concluded, but I do have another 
question to the Corps, if I may. The Calcasieu River ship 
channel is a critical channel for the security of this Nation's 
energy supply. We have been focusing on a problem of deep 
significance in Terrebonne Parish, but I want to shift your 
attention to southwest Louisiana, which is sometimes 
overlooked, and we want to make sure it is not.
    How much funding, do you know, will it take to restore the 
Calcasieu River ship channel to its authorized depth? And what 
is in the budget today? If it is not sufficient, what is the 
Corps' position in terms of getting emergency funding to get 
this channel dredged to its authorized level? Because it is a 
crucial channel, as you know, between southwest Louisiana and 
southeast Texas. Mr. Loew.
    Mr. Loew. Yes, ma'am. Actually, I have some good news 
there. The total cost to repair the damages to the Calcasieu 
channel and Lake Charles area, the Corps of Engineers projects 
associated with the channel, is approximately $40 million. That 
includes not only the channel dredging but also damages to 
containment areas and to jetties and four shore dikes.
    What we have done, we have a contract undergoing now to 
dredge a portion of the outer bar of--or, excuse me, the inner 
channel. Today we issued another $4.5 million so that they can 
award a hopper dredge contract to dredge the outer bar area. We 
will combine that with another $2 million that we expect to get 
during the continuing resolution period, and we will be able to 
clean the outer bar area.
    That leaves us short about another $7.5 to $8 million for 
channel dredging in the Calcasieu and Lake Charles area.
    Senator Landrieu. Are you prepared to ask for that in this 
disaster supplemental?
    Mr. Loew. Yes, ma'am. We have identified that requirement.
    Senator Landrieu. So the total request for the Calcasieu 
River will be something around $40 million?
    Mr. Loew. Yes, ma'am, that is correct.
    Senator Landrieu. OK. And, finally, I just want to call 
attention to something that is very concerning to the Chairman 
of this full Committee. I have had several hearings on this, as 
some may know. This is the housing plan that, after Hurricane 
Katrina, FEMA was required to come up with. There are seven 
blank pages still in this housing plan, Mr. Johnson. The reason 
I was pushing very hard for this plan to be finished, which is 
something that you and the Secretary of HUD must do, is because 
I was anticipating that there might just be another major 
disaster on the Gulf Coast. I want to read the titles of these 
pages:
    ``Overview of disaster housing programs for Federal, State, 
tribal, and local governments and nongovernmental 
organizations. Under development.''
    ``Methods to house disaster victims where employment and 
the resources they need for living are available. Under 
development.''
    ``Summary of programs for special needs and low-income 
populations, including provision of housing units for 
individuals with disabilities. Under development.''
    ``Disaster housing group sites. Under development.''
    ``Programs to promote the repair or rehabilitation of 
existing rental housing. Under development.''
    ``Additional authorities necessary to carry out this 
strategy. Under development.''
    And, finally, ``A summary of guidance on disaster housing 
assistance available under the Stafford Act Relief and 
Emergency Assistance Acts, including eligibility criteria and 
application procedures. Under development.''
    I most certainly hope this development is going on in the 
next 24 hours because the mayor of Galveston and the executives 
of many cities and counties and parishes in Louisiana are 
hoping that you all have some ideas other than blank pages.
    I am going to close this hearing with this comment: We have 
made significant progress, and I know I offered great leeway 
here for people to testify about all the good things that 
happened. But I will stake my reputation on the fact that 
before the final story is told, there will be chapter after 
chapter after chapter of bankruptcies, of people losing their 
houses, of cities struggling to recover. So I would just 
caution everybody before we start patting each other on the 
back about what a good job we have done, let's work harder to 
get these pages filled, to get a housing plan and a community 
redevelopment plan, and expedite the protection that people 
along the Gulf Coast most certainly deserve so they have levees 
that do not break, they have flood control systems that they 
can count on, because there have been billions of dollars of 
damage--in just the last 4 weeks, billions of dollars of 
damage. And this is not from people's greed like what happened 
in large measure on Wall Street. These people are innocent 
victims of a government that will not work hard enough to get a 
plan to protect them.
    The hearing is adjourned. Thank you.
    [Whereupon, at 12:06 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR VOINOVICH
    Madam Chairman, thank you for calling this hearing to discuss 
efforts to respond to and recover from Hurricanes Gustav and Ike. I am 
glad State and local officials from Louisiana and Texas are here today 
to tell the Subcommittee about their efforts as well as their 
perception of Federal efforts in response to those hurricanes.
    Louisiana and Texas were hit hard by Hurricanes Gustav and Ike, and 
our thoughts and prayers are with all the people of those States.
    But Hurricanes Gustav and Ike did not only impact the Gulf Coast. 
On Sunday, September 14, the remnants of Hurricane Ike caused a wind 
storm in Ohio with category one hurricane force winds over a sustained 
period of time across the State. That storm led to at least seven 
fatalities, almost 2 million customers without power, and 450 school 
closures. On Wednesday, September 17, Ohio's Governor asked the 
President to declare a statewide emergency as a result of the wind 
storm. The governor's request estimated $7 million in requirements for 
assistance.
    I understand the Federal Emergency Management Agency (FEMA) is 
working hard right now in the Gulf coast and across the country in 
response to a number of recent natural disasters, and I appreciate 
those efforts. But I am told that it is going to take almost a month 
for FEMA to work with State and local officials in Ohio to complete 
Preliminary Damage Assessments relating to Ohio's September 14 storm, 
and I want assurances for my home State that FEMA is going to do 
everything it can as quickly as it can to help Ohio recover from this 
wind storm.
    Thank you.


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
